Semiannual Report
 to the Congress
April 1, 1997 - September 30, 1997




    U.S. General Services Administration
         Office of Inspector General
              Foreword


This report, submitted pursuant to the Inspector General Act of 1978, as amended,
summarizes the activities of the Office of Inspector General (OIG) for the 6-month
reporting period that ended September 30, i997.

The OiG continued to work closely with GSA management to find ways to increase
the efficiency and effectiveness o.lthe Agency's programs and operations and to
identify and implement sound business management and operational improvements.
We expanded our work to provide non-traditional audit and investigative, value-
added services to Agency managers through enhanced consulting services, advisory
reports, and continued active participation on Agency improvement task forces. The
acceptance of our work in these non-traditional roles is evidenced by continuing
management requests for consulting assistance and participation on various Agency
taskforces.

At the request of Agency management, we expanded our consulting services role and
provided program managers with quick, up-front responses to specific management
concerns. Our consulting services covered a range of GSA activities cutting across
all GSA components. We also issued several advisory reports informing managers of
opportunities for operational improvements.

We also increased our emphasis on conducting large scale, operational reviews of
major GSA programs and operations. Our reports included recommendations for
improvement in the accountability, performance measurement, training, and
information sharing practices for the Federal Protective Service, and the
administration and accountability of GSA's Fast Track Award pro gram. We also
made recommendations to improve inventory cost management and controls over the
Personal Property Donation program. in addition, we made recommendations to
improve GSA's program designed to quickly and efficiently procure oi{the-shelf
computer products and services. Also, four emerging issues and concerns are
discussed this period.

During this reporting period, we identified almost $55 million infinancial
recommendations on how funds could be put to better use and in other program
savings. In addition, 192 referrals were made for criminal prosecution, civil
litigation, and administrative action. Criminal cases originating from OIG referrals
resulted in 16 successful prosecutions. The OIG also reviewed 268 legislative and
regulatory matters and received 1,755 Hotline calls and letters. Savings achieved
this period from management decisions on audit financial recommendations, civil
settlements, and investigative recoveries totaled over $65 million.

1 want to take this opportunity to thank the GSA Administrator, GSA's senior
managers, and the Congress for their support. I also want to commend the OIG's
employeesfor their continued professionalism, dedication, and willingness to accept
new challenges and to adapt to an ever-increasing demand for both traditional and
non-traditional work products.



WILLIAM R. BARTON
Inspector General

October 31, 1997
                     Contents


                                                                               Page

Summary of OIG Performance ............................................ v

Fiscal Year Results ..................................................... vi

Executive Summary .................................................... vii

OIG Profile ............................................................ 1

Procurement Activities ................................................... 2

Partnering with GSA Management ........................................ 10

Reviews of GSA Programs .......... , ................................... 14

Emerging Issues and Concerns ........................................... 24

Prevention Activities ................................................... 30

Review of Legislation and Regulations .................................... 32

Statistical Summary of OIG Accomplishments .............................. 34

Appendices

Appendix I - Significant Audits from Prior Reports ......................... .41

Appendix II - Audit Report Register ...................................... .43

Appendix III - Audit Reports Over 12 Months Old with Final Action Pending ..... 55

Appendix IV - Delinquent Debts .......................................... 60

Appendix V - Reporting Requirements ..................................... 61




                                                        Office of Inspector General iii
                      Summary of DIG Performance



OIG Accomplishments    April 1, 1997 - September 30, 1997
                       Total financial recommendations                                   $55,267,993

                       These include:

                           Recommendations that funds be put
                           to better use                                                 $45,727,157

                           Questioned costs                                               $9,540,836

                       Audit reports issued                                                   152

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                  192

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                        $65,006,746

                       Indictments and informations on criminal referrals                      13
                       Cases accepted for criminal prosecution                                 8
                       Cases accepted for civil action                                         3

                       Successful criminal prosecutions                                        16

                       Civil settlements                                                       5
                       Contractors suspended/debarred                                          33

                       Employee actions taken on administrative
                       referrals involving GSA employees                                       17




                                                                            Office of Inspector General v
                                            Fiscal Year 1997 Results


                                       During Fiscal Year (FY) 1997, OIG activities resulted in:

                                       •     Over $121 million in recommendations that funds be put to better use and in
                                             questioned costs. If adopted, these recommendations ultimately result in
                                             savings for the taxpayers.

                                       •     Management decisions to put funds of $246.7 million to better use based on
                                             OIG recommendations.

                                       ..    312 audit reports that assisted management in making sound decisions regarding
                                             Agency operations.

                                             9 implementation reviews that tracked the progress of actions in response to
                                             internal audit reports.

                                             $43.4 million recovered as a result of management decisions to recover funds,
                                             civil settlements, court-ordered recoveries, and investigative recoveries.

                                             318 new investigations opened and 305 cases closed.

                                             22 case referrals (45 subjects) accepted for criminal prosecution and 7 case
                                             referrals (10 subjects) accepted for civil litigation.

                                             31 criminal indictments/informations and 31 successful prosecutions on
                                             criminal matters referred.

                                              14 civil settlements and 1 judgment.

                                             27 referrals to other Federal agencies for further investigation.

                                             22 employee actions taken on administrative referrals involving GSA
                                             employees.

                                             31 contractor suspensions and 49 contractor debarments.

                                             343 legislative matters and 58 regulations and directives reviewed.

                                             3,914 Hotline calls and letters received of which:l64·warranted further GSA
                                             action.




vi Semiannual Report To The Congress
     Executive Summary


During this period, we expanded our efforts to provide professional assistance
through enhanced consulting services, advisory reports, active participation on
Agency task forces, and the use of alert reports designed to quickly inform
management of potentially serious deficiencies or other concerns prior to completion
of all analytical work and formal report issuance. These services have been added
while we continue to offer our more traditional services including program
evaluations, contract and financial auditing, and internal controls reviews.

Consulting Services
At the request of Agency management, we expanded our consulting services role to
cover a range of GSA activities cutting across all GSA components. We helped a
Public Buildings Service (PBS) component develop a cost allocation system for
protection billing rates (page 10); analyzed stock procurement practices and declining
sales in a GSA commodity center (page 10); benchmarked private sector and other
Government practices for replacing and utilizing light trucks (page 11); and helped
research best management practices for managing information technology
infrastructure, budget issues, and project initiatives (page 11). We also issued several
advisory reports informing managers of opportunities for operational improvements.
We continued our participation on Agency task forces by providing advice on
appropriate management controls. Agency management has requested our assistance
in task forces looking at GSA's rent revenue forecasting system, in addition to
looking at ways to better educate employees about effectively managing building
assets (page 12), and to better manage emergency readiness initiatives (page 12).
We also issued two significant advisory evaluations. In our first advisory report we
provided GSA contract managers with information on the most efficient ways to
procure, use, and control wireless communication services (page 3). We concluded
that GSA could achieve significant savings and better program management if it went
from multiple vendors to a single vendor and if it developed multiple rate plans for
different levels of use. The second report involved a review of GSA's Fleet
Management System's "Cost Per Mile" performance measure (page 22). We reported
that this performance measure was an acceptable measure for reporting performance
under the Government Performance and Results Act because it did include all the
various fleet operating cost components.
Program/Operational Reviews
The OIG also continued its efforts to conduct large-scale reviews of major programs
and operations throughout GSA's various components. For example, in our review of
security and law enforcement in Federal buildings, we reported that safety and
protection of Federal employees and property is potentially being compromised
because regional criminal investigation activities are operating autonomously, with no
program accountability or measurable performance standards. Consequently, we
made recommendations for improvements in the accountability, performance
measurement, training, and information sharing practices for the Federal Protective
Service (page 14). Other program reviews resulted in recommendations for
improving the administration and accountability of GSA's Fast Track Award program
(page 15); reducing inventory costs, improving quantity demand projections, and
improving the overall management of' more than 7,600 commonly used items in GSA
inventories (page 21); and improving controls over the States' administration of the



                                                            Office of Inspector General vii
                                              Executive Summary


                                         Personal Property Donation program (page 23). In addition, we made
                                         recommendations to improve the overall management of GSA's program designed to
                                         quickly and efficiently procure off-the-shelf computer products and services (page 4).

                                         Our operational reviews reported that several GSA initiatives were largely successful
                                         in meeting their planned objectives. For example, GSA developed a pilot contract
                                         program to quickly meet the demand for skilled craftsmen such as electricians,
                                         carpenters, mechanics, and plumbers. We found that the pilot contract fulfilled its
                                         primary purpose of providing skilled workers to serve the needs of GSA's customers,
                                         projects were completed in a timely manner, the procurement system was operating
                                         efficiently, and Agency customers were pleased with the overall quality and
                                         timeliness ofrequested services (page 5). We also found that GSA's energy retrofit
                                         program for Federal buildings has exceeded its expectations in that energy use has
                                         been reduced by 20 percent and that the project is paying for itself (page 17). GSA is
                                         also taking appropriate action to help its customers reduce long distance telephone
                                         charges (page 19).

                                         Procurement Integrity
                                         An important part of our work effort is to provide support to Agency contracting
                                         officers and to protect the integrity of GSA procurement programs and operations by
                                         detecting and preventing fraud, waste, and abuse. This period, several private sector
                                         contractors agreed to pay over $6.7 million to resolve potential civil liability underthe
                                         False Claims Act (page 2). These contractors provided a wide array of products and
                                         services such as office equipment and furniture, identification cards, and automated
                                         data processing (ADP) equipment. The violations included misrepresentation of
                                         commercial discount practices and violations of the Trade Agreements Act. In
                                         addition, our efforts resulted in the conviction of several GSA contractors involved
                                         with the theft of Government property, false certifications, and the fraudulent use of a
                                         Government credit card. However, our relationships with private industry are not
                                         always adversarial. A recent investigation conducted by the OIG in partnership with
                                         a major tool manufacturer disclosed a GSA employee stole over $240,000 of the
                                         manufacturer's tools from a GSA distribution center and sold the tools on the "black
                                         market" for less than the production cost of the tool. Both the Government and the
                                         manufacturer were victims of this crime and worked jointly to protect the integrity of
                                         GSA's commercial item acquisition program and the manufacturer's product value
                                         (pages 8-9).

                                         Summary of Results
                                         The OlG made almost $55 million in financial recommendations to better use
                                         Government funds, and in other program costs savings; made 192 referrals for
                                         criminal prosecution, civil litigation, and administrative actions; reviewed
                                         268 legislative and regulatory actions; and received 1,755 Hotline calls and letters.
                                         This period, we achieved savings from management decisions on financial
                                         recommendations, civil settlements, and investigative recoveries totaling over
                                         $65 million. See page v for a summary of this period's performance.




viii Semiannual Report To The Congress
     Executive Summary


Emerging Issues and Concerns
We continue our practice of highlighting emerging issues and matters of particular
concern.

The primary ongoing issue involves GSA's previous disclosure that its forecast of
rent revenue for FY 1996 and FY 1997 exceeded actual rent income by over
$680 million and that it therefore could not fund all the projects authorized by
Congress. During this period, we reviewed the Agency's newly developed projection
of an additional revenue gap for FY 1997 of $78.6 million. Based on our review, we
believed the projection was understated by $28 million because it is based on overly
optimistic assumptions of adjustments for bad debt expense and credit corrections.
On July 2, 1997, the Agency did report the additional revenue gap to Congress as an
adjustment of $100 million. We considered this disclosure to be more consistent with
our review and therefore reasonable. The Agency established a task force on revenue
forecasting to examine the rent revenue forecasting process and requested our
participation. In addition, the OIG, at the Agency's request, has joined with the
Agency in a review of the accuracy of the data in the Agency's rent billing
information system. We will continue to work with GSA in improving its rent billing
system (page 24).

One new issue emerged this period that we believe warrants reporting here: concern
for the proper application of management controls over program assets. We believe
the current environment of reinventing Government, streamlining operations,
declining staffs, shifting from a centralized to decentralized operations, and the
increased emphasis on customer service, has heightened the importance of
management adherence to the few remaining broad controls in place to protect
Government assets. This is especially true in the procurement arena. In several
ongoing reviews, we have identified problems stemming from a lack of proper
controls or breakdowns in designed controls which could lead to fraud and waste in
GSA's programs and operations. As a result, we plan to shift more audit resources to
the review of management controls over the next year (page 27).

Two other previously reported matters remain of continuing concern: the curtailment
of postaward audit authority and the elimination of pricing certifications in the
Multiple Award Schedule (MAS) program (page 27), and issues relating to the
Agency's authority to compromise debt (sale of the U.S. Custom House to the City of
Boston) (page 28).

Customer Feedback
We are continuing with our efforts to obtain customer feedback from our internal
customers. We provide a Customer Satisfaction Survey form for customer use with
each of our internal products. The feedback received to date has been very positive
and will be used to help us improve the quality and timeliness of our internal products
(page 13).




                                                            Office of Inspector General ix
                                  DIG Profile


                      The GSA OIG was established on October 1, 1978 as one of the original 12 OIGs
                      created by the Inspector General Act of 1978. The OIG's five components work
                      together to perform the missions mandated by the Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. It consists
                      of:

                          The Office of Audits, an evaluative unit staffed with auditors and analysts who
                          provide comprehensive audit coverage of GSA operations through program
                          performance reviews, internal controls assessments, and financial and mandated
                          compliance audits. It also conducts external reviews to support GSA
                          contracting officials to ensure fair contract prices and adherence to contract
                          terms and conditions. To increase its ability to meet customer needs, the office
                          has added advisory and consulting services to its service offerings.

                          The Office of Investigations, an investigative unit that manages a nationwide
                          program to prevent and detect illegal and/or improper activities involving GSA
                          programs, operations, and personnel.

                          The Office of Counsel to the Inspector General, an in-house legal staff that
                          provides legal advice and assistance to all OIG components, represents the OIG
                          in litigation arising out of or affecting OIG operations, and manages the OIG
                          legislative/regulatory review functions.

                          The Internal Evaluation Staff, an in-house staff that plans and directs field
                          office appraisals and conducts internal affairs reviews and investigations.

                          The Office of Administration, an in-house staff that provides information
                          systems, budgetary, administrative, personnel, and communications services.

Office Location       The OIG is headquartered in Washington, D.C., at GSA's Central Office building.
                      Field audit and investigations offices are maintained in Boston, New York,
                      Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                      Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                      Angeles.

Staffing and Budget   The OIG started FY 1997 with a total on-board strength of 316 employees. As of
                      September 30, 1997, our on-board strength was 290 employees.

                      The OIG FY 1997 budget was approximately $33.8 million.




                                                                                 Office of Inspector General 1
                                          Procurement Activities


                                      GSA is responsible for providing working space for almost 1 million Federal
                                      employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                                      leases space, and also contracts for repairs, alterations, maintenance, and protection
                                      of Government-controlled space. GSA also operates a Governmentwide service and
                                      supply system. To meet the needs of customer agencies, GSA contracts for billions of
                                      dollars worth of equipment, supplies, materials, and services each year. We review
                                      these procurements both on a preaward and postaward basis to ensure that the
                                      taxpayers' interests are protected.

Significant OIG                       Over $6.7 Million in Civil Recoveries
Accomplishments                       During this period, the Government entered into 5 settlement agreements in which
                                      companies agreed to pay over $6.7 million to resolve their potential civil liabilities
                                      under the False Claims Act. These agreements, negotiated by representatives of the
                                      Department of Justice (DOJ) and the GSA OIG, reflect the ongoing efforts of the OIG
                                      to pursue cases involving procurement fraud and practices which threaten the
                                      integrity of the Government's procurement process.

                                      Many of these cases involved procurements under GSA's MAS program. Under this
                                      program, GSA negotiates contracts with a number of vendors who may then sell
                                      covered products to Federal agencies at established contract prices. Consistent with
                                      the provisions of the Truth in Negotiations Act and the Competition in Contracting
                                      Act, the process is based on the principles of full and open disclosure and fair
                                      negotiations. Vendors must provide current, accurate, and complete pricing
                                      information-including information about discounts granted their most favored
                                      commercial customers-during contract negotiations. Relying on this information,
                                      GSA contracting personnel then seek to obtain the best possible prices for the
                                      Government. In cases where vendors fail to provide current, accurate, or complete
                                      information, the Government may pay artificially inflated prices for products and
                                      services purchased. Highlights of these cases follow.

                                      •    A major office equipment company paid $6,000,000 to resolve its potential
                                           False Claims Act liability for misrepresenting its commercial discounting
                                           practices to GSA during negotiations for its 1988 MAS contract. The case
                                           originated with a criminal investigation, which resulted in a plea of guilty to
                                           mail fraud in 1994 by a former official of the company.

                                           A company that sells office equipment to Federal customers under MAS
                                           contracts agreed to pay $250,000 to settle the Government's claims that it
                                           violated the False Claims Act by providing products that did not meet the
                                           contract terms. The subcontractor that actually produced the items agreed to pay
                                           $125,000 to resolve its potential liability for the same problem.

                                           A company that sells ADP furniture, storage, and transportation items in the
                                           MAS program paid $202,899 to settle its potential False Claims Act liability for
                                           failing to disclose the full extent of its discounting practices to Government
                                           contract negotiators. In its complaint, the Government alleged that it would not
                                           have entered into the contract if it had known that the company was offering
                                           significantly better terms to its commercial customers.




2 Semiannual Report To The Congress
  Procurement Activities


    A company that supplies identification card accessories in the MAS program
    agreed to pay $140,000 to settle the Government's claims under the civil False
    Claims Act. An OIG investigation had determined that the company had
    violated the Trade Agreements Act by falsely claiming that it had manufactured
    the accessories when, in fact, it had resold items made in non-designated
    countries.

    A company that supplied ADP furniture under a MAS contract agreed to settle
    the Government's claim that it violated the False Claims Act by misrepresenting
    the extent of its discounting practices.


Wireless Telephone Service
The growth of cellular and digital wireless telephone use has prompted interest in
developing the most efficient ways to procure, use, and control wireless services.
Industry publications predict that wireless service will soon replace a significant
portion of traditional telephones. The GSA spends close to $15 million each year on
local telephone service. A significant portion of that amount could go wireless in a
few years.

In 1996, GSA awarded a non-mandatory national contract with an estimated value of
$300 million to provide the Federal Government with wireless services and
equipment. The contractor uses 54 wireless service providers to supply Federal users
with nationwide wireless coverage. The contract provides flexibility for users to
obtain additional emerging wireless services and equipment based upon agency
requirements and public availability. Contract rates vary by service area and are to be
continually adjusted throughout the life of the contract to reflect local market changes.
The maximum term of the contract is 8 years with an initial 3-year period and five
I-year options.

During this period, we focused on evaluating the procurement and management of
wireless telephone service in the Agency. Our review concluded that GSA could
achieve significant savings and better program management if it were to use only one
vendor for its wireless needs. Currently, individual Agency offices purchase wireless
service on the open market, frequently using more than one vendor. This method of
ordering is time-consuming, can result in unfavorable rate plans (plans that do not
correspond to actual usage), requires processing of vendor billings by individual
offices, and does not provide a means for monitoring overall usage of wireless
phones. Use of a single vendor would achieve substantial efficiencies in the
procurement, use, and management of wireless services.

The national contract already provides many benefits, including nationwide coverage;
a single point of contact for ordering, billing, and answering questions; and a 48-hour
turnaround upon receipt of orders. In addition, we found contract rates to be highly
competitive in many major metropolitan areas. Despite the advantages,
Governmentwide use has been delayed in many cases, partly because many users may
be locked into existing extended service agreements with local vendors, while others
have diverse needs.

The Agency's national wireless contract currently contains only one rate plan per
service area, generally based on 75 free minutes of airtime per month. In the major



                                                              Office of Inspector General 3
                                          Procurement Activities


                                      wireless markets, the industry offers different rate plans based on different levels of
                                      usage. We believe that multiple rate plans are necessary for the contract to meet the
                                      needs of GSA and other Federal customers in a cost-competitive manner.

                                      We also noted that current contract-based pricing restrictions could discourage a
                                      vendor from offering Federal customers its most competitive rates. The vendor is not
                                      able to target specific Federal users in a particular service area for discounted rates
                                      without being bound to offer all other Federal customers in the same service area
                                      equivalent rates. We believe the Government would benefit from removal of across-
                                      the-board pricing restrictions within the same service area.

                                      The September 24, 1997 report is advisory in nature and does not contain formal
                                      recommendations. However, subsequent to our discussions of contract enhancements
                                      with GSA and the contractor representatives, and in recognizing the need to improve
                                      the viability of the contract, GSA initiated a contract modification to allow more
                                      pricing flexibility.

                                      Federal Acquisition Services for Technology Program
                                      The Federal Acquisition Services for Technology (FAST) program was established in
                                      July 1996 to procure commercial off-the-shelf computer products and services in a
                                      quick and efficient manner for customer agencies. FAST was developed to replace a
                                      local program that the OIG had reported as not in accordance with Federal
                                      Acquisition Regulation and Small Business Administration requirements. FAST
                                      operates through a national program office and II regional offices. During the first
                                      9 months of FY 1997, the FAST program generated revenues of $311.8 million. Its
                                      operations are funded through customer fees.

                                      Our review noted that the FAST program needs to operate more effectively and to
                                      process orders in a more timely manner. It is projected to have a loss of almost
                                      $3 million this fiscal year. In addition, the OIG report noted several program areas
                                      that can be improved:

                                      •    The FAST program has a regional focus, which has led to the regional FAST
                                           offices competing against each other as well as other Federal telecommunication
                                           services programs, instead of competing with other Federal agencies' computer
                                           technology programs.

                                      •    Regional FAST offices had not established adequate surcharge rates to recover
                                           costs and the program's revenues have been substantially overestimated.

                                           Not all offices have sufficient staffs to carry out the mission and provide good
                                           customer relations.

                                           The marketing program for the FAST program can be better organized.

                                      •    The program needs to comply with the Prompt Payment Act because the offices
                                           often prepare receiving reports late. This caused the Government to incur
                                           interest of over $53,000 in the first half of FY 1997. Also, the procurement
                                           process is not automated in most offices.




4 Semiannual Report To The Congress
  Procurement Activities


Management has recently made some changes designed to reduce internal
competition, increase the surcharge rates, and automate procurement processes.
However, additional measures are needed to more effectively compete with several
other Federal programs.

Our September 24, 1997 report recommended that the Commissioner, Federal
Telecommunications Service:

    Develop and implement a business plan, covering operations and marketing, for
    the national FAST program.

    Develop and implement standard procedures for the processing of FAST
    program transactions.

The Commissioner concurred with our recommendations. The audit is still in the
resolution process.

Commercial Skilled Craft Manpower Services
In response to decreasing staff and restrictions on hiring, officials in one region
created a pilot contract to restore the capacity to deliver services to Agency
customers. The contract for skilled craft manpower services was awarded in
November 1994. Under this contract, the region is able to obtain skilled craft persons
including electricians, carpenters, mechanics, and plumbers as the need arises by
issuing manpower task orders. The contract is also a vehicle for subcontracting repair
work through the contractor. When a repair is beyond the contractor's responsibility
under the manpower provisions of the contract, GSA may elect to use the contractor
to solicit bids and award a contract to an outside vendor.
Agency management in that region asked the OIG to assist by reviewing the pilot
project. The region will then decide whether to expand this type of contract into other
property management centers.
Our review focused on evaluating whether:
    The contract is being used in the manner intended;

    The manpower contractor's performance has been satisfactory;

    The contracting officer has reasonable assurance that GSA is receiving the
    goods and services for which GSA is being invoiced under the contract; and

    The contract costs can be lowered.

This contract is a flexible tool for managing skilled craft manpower provided by a
commercial company. It is fulfilling its primary purpose of providing skilled workers
to assist GSA in serving the needs of its customers. By issuing task orders to the
contractor, the regional manager can quickly change the size of the skilled craft work
force or the skills mix in response to changes in personnel levels, budget restrictions,
or Agency demands for services.




                                                             Office of Inspector General 5
                                        Procurement Activities


                                      Our review found that repair projects were completed in a timely manner through an
                                      efficient procurement system set by the contract. Agency tenants generally rated the
                                      contractor good to excellent in responding to service calls; and GSA was satisfied
                                      with contractor performance, skill level, and productivity. Inefficiency was noted
                                      with the time required to oversee the contract.

                                      We pointed out opportunities for reducing costs in this or future contracts, and
                                      provided additional suggestions offered by the private sector on strategies for pooling
                                      skilled craft resources to provide services for an expanded building inventory.

                                      Our September 29, 1997 report did not contain formal recommendations. We have
                                      provided observations and suggestions, where appropriate.

                                      Decentralized Contracting Functions
                                      Property Management Centers (PMC) are responsible for the overall operations of
                                      GSA-managed and Government-owned buildings. In order to provide better, faster,
                                      and smarter service to the customer agencies, the contracting function has been
                                      delegated to the PMC level. Since the regional offices have been unable to keep up
                                      with the loss of personnel, procurement authority has been delegated to those with
                                      backgrounds that do not include contracting experience.

                                      In addition, the Clinger-Cohen Act of 1996, which was enacted into law on
                                      February 10, 1996, requires the establishment of qualification prerequisites, including
                                      education, training, and experience, for both entry-level and senior positions in the
                                      General Schedule contracting series. GSA is in the process of implementing the
                                      requirements of the Act.

                                      This period we reviewed a region's decentralization of contracting functions within
                                      the PMCs. Our primary emphasis was to determine if contracting officers and
                                      contract specialists had adequate training, education, and experience to perform their
                                      duties, and if procurement controls were in place to ensure reasonable prices and
                                      contracting terms.

                                      The review found that while the PMC contracting officials are qualified to negotiate
                                      and award contracts, and that they were obtaining reasonable prices and contract
                                      terms, more could be done to protect the Government's interests. Contracting
                                      officials should be given added training in awarding contracts. In addition,
                                      improvements should be made in controls over materials or services ordered and
                                      received to ensure that the items are used as authorized, and that contract
                                      modifications are in the best interest of the Government. Finally, enforcement of
                                      controls already in place over the use of credit cards will prevent the misuse of funds.

                                      Our September 29, 1997 report to the Assistant Regional Administrator recommended
                                      that:

                                          Contract officials receive adequate training to keep their expertise current with
                                          recent changes, trends, and significant issues in procurements.

                                          PMCs ensure that only authorized officials procure supplies and services; all
                                          materials and services procured through the PMC are verified and documented,
                                          and controls over contract modifications are strengthened.




6 Semiannual Report To The Congress
  Procurement Activities


GSA management began actions to improve the training of contracting officials
before our review was completed. The report is still in the resolution process.

Construction Contracts
GSA is responsible for construction, repair, and alteration of Federal buildings. The
construction contracts specify quality, quantity, and the delivery location and date(s)
of the work to be provided. This period, the OIG completed two reviews in the
construction contracting area.

    Term Contracts
    The GSA awards indefinite quantity contracts that facilitate the procurement
    process for acquiring repair and alteration services at agreed-upon prices for
    stated units of labor and material. Although the term contracts were being
    awarded quickly and efficiently, user GSA field offices were not effective in
    ensuring that contractors delivered the services on the dates agreed to. The
    primary reason was that delivery dates were not amended when necessary, and
    inspections were not scheduled to be performed when the work was to be
    completed.

    The review in one region identified problems with the accuracy of pricing
    delivery orders and with the ordering process that may have resulted in
    overpayments for the required services. Our review noted that GSA ordering
    offices need to improve the clarity of the scope of work to ensure that the
    Government gets the services that it pays for, prepare adequate price support for
    any work that is ordered from the term contractors, and comply with verifying
    wages required by labor laws.

    Our June 24, 1997 report to the Regional Administrator recommended actions to
    improve the procurement and administrative processes. The Regional
    Administrator concurred with the recommendations in the report. The audit is
    still in the resolution process.

    Contract Administration
    Construction contracts usually contain a liquidated damages clause that sets a
    value for late delivery or performance when the estimate of loss is uncertain or
    would be difficult to prove. Damages should be set at a level which provides an
    incentive for on-time delivery of work, yet which does not constitute a penalty
    which the courts would be hesitant to enforce.

    An OIG review found that the liquidated damages rates in current contracts were
    based on outdated tables, some dating back to 1981. Discussions with other
    Federal, State, and local Government organizations engaged in the construction
    industry indicate their use of either current tables or case-by-case damage rates.
    Altho~gh use of tables is administratively convenient, it may not be appropriate
    in all situations.

    Our July 10, 1997 report recommended that the Regional Administrator
    establish a uniform policy for development of rates of liquidated damages that



                                                              Office of Inspector General 7
                                        Procurement Activities


                                          are reasonable, supportable, and current. The Regional Administrator agreed
                                          with the recommendation in the report. The audit is still in the resolution
                                          process.


                                      Theft of Government Property
                                      On September 16, 1997, a GSA employee pled guilty in U.S. District Court to theft
                                      of Government property. He was arrested by OrG agents and released on a
                                      $25,000 bond. Sentencing is set for November 1997.
                                      This investigation was predicated upon information brought to the OrG by a major
                                      tool manufacturer that products they supplied to GSA were surfacing on the "black
                                      market" at prices below the manufacturer's production cost for the tool. The
                                      manufacturer was concerned that the value of their product would be adversely
                                      affected by this activity, and the OrG was equally concerned that Government
                                      property was being diverted from GSA's commercial item acquisition program. The
                                      OrG and the manufacturer partnered in the ensuing investigation that identified a
                                      GSA distribution center warehouse which stored bulk quantities of the manufacturer's
                                      tool products for resale to Government agencies. The investigation ultimately
                                      determined that a GSA employee had systematically stolen over $240,000 of these
                                      tool products from the warehouse inventory. In addition to large quantities of tools
                                      recovered and returned to Government inventories, the source of "black market"
                                      compromise of the manufacturer's product value was eliminated. Additionally,
                                      investigative results and the findings of an ongoing OIG audit are being provided to
                                      GSA for improvement of theft prevention and inventory controls at the Agency's
                                      distribution centers.
                                      Previously, on June 3,1997, two other GSA employees also pled guilty in U.S.
                                      District Court for theft of Government property from the GSA distribution center.
                                      Sentencing of these two employees is set for October 1997.

                                      Program Fraud Civil Remedies Act
                                      On May 22, 1997, an athletic and recreational equipment supplier agreed in a
                                      settlement to pay the Government $6,000 under the Program Fraud Civil Remedies
                                      Act. Under the Act, Federal agencies can institute administrative proceedings to
                                      recover damages and penalties from a person or entity that presents false claims or
                                      makes false statements to the Government. Agencies can recover twice the amount of
                                      damages to the Government and penalties of up to $5,000 per violation.

                                      The OrG initiated actions under the Act after a GSA contracting officer reported that
                                      the supplier shipped basketballs labeled "made in Korea" to another Government
                                      agency. Under the contract terms, the supplier was required to certify that the
                                      products being provided were "domestic end products" as defined in the Trade
                                      Agreements Act. The investigation disclosed that the supplier sold sporting
                                      equipment imported from Taiwan and Korea to the Government in violation of the
                                      Trade Agreements Act.




8 Semiannual Report To The Congress
  Procurement Activities



Fraud Conviction
On April 18, 1997, an Army recruiter was sentenced to probation for a period of
2 years and agreed to make restitution to GSA in the amount of $1 ,960 after pleading
guilty in U.S. District Court for fraudulent use of Government gasoline credit cards.

The OIG investigation determined that the recruiter had conspired with the gasoline
station attendants to inflate the amount of gasoline purchased with the Government
credit card. Since the dollar amount of the sale was inflated, the recruiter and the
attendants split the difference.

The scheme was detected through a proactive database review which initially
disclosed many instances during the period June 1994 to March 1995 wherein the
gasoline tank of a Government vehicle assigned to the recruiter was filled in excess of
its 16-gallon capacity.

A report of investigation was forwarded to the Department of the Army for
administrative action it deems appropriate.

Conflict of Interest
On April 24, 1997, as a result of an OIG investigation, a GSA buildings manager was
suspended for 12 days, required to cease all outside employment, assigned to a
different job position, and had his contracting warrant cancelled for conflict of
interest.
This investigation was initiated when another GSA employee alleged that a GSA
building manager might be using GSA contractors in his non-Government, personal
outside business activities. The investigation disclosed that the GSA buildings
manager was engaged in an unauthorized outside employment venture as a general
contractor building private residences. Additionally, we determined the buildings
manager engaged the services of an electrical contractor simultaneously in both his
private business enterprises and in his official capacity as a GSA buildings manager
for GSA repair and alteration contracts.




                                                            Office of Inspector General 9
                                  Partnering with GSA Management



                                       New Value-Added Assistance Services
                                       This period the OIG continued its expanded efforts to provide value-added
                                       professional assistance to GSA through decision-enhancing consulting services,
                                       management alert reports, and participating on Agency improvement task forces. As
                                       with our other services, these expanded efforts remain focused on finding ways to
                                       help the Agency become more efficient and effective. By offering these non-
                                       traditional services to Agency officials, the OIG is furnishing timely information
                                       sought by managers for improving decision-making, program outputs, and mission
                                       accomplishment. In addition, managers requesting assistance receive a faster
                                       response because innovative methods are being used to quickly develop data and
                                       deliver results. The nature of our efforts, as well as the breadth of services, are
                                       highlighted in the following paragraphs.
                                       Consulting Services. These OIG efforts are designed to provide management with
                                       quick, up-front responses to specific program concerns. Because consulting services
                                       are initiated by management and not by the OIG, requesting officials are able both to
                                       define and limit the scope of the consulting project. In this partnering relationship
                                       with Agency management, information objectively developed by the OIG is provided
                                       for the interpretation and discretionary use of the requesting official. Accordingly,
                                       consulting service products are distributed only to requesting officials and provide
                                       observations and alternatives for consideration in lieu of formal audit
                                       recommendations. Consulting projects concluded this period include:

                                           Development of Cost Allocation Systems - A regional PBS manager asked the
                                           OIG to assist the Federal Protective Service in developing a cost allocation
                                           system aimed at generating a per-square-footage protection billable rate that
                                           could be used to charge Federal agencies occupying Government-owned and
                                           Government-leased space. Our product addressed the costs for guard service
                                           contracts and control centers, and a system for allocating these costs to
                                           Federally-occupied buildings that receive protection service. By applying
                                           sophisticated cost-accounting methodologies, the OIG was able to propose
                                           improved allocation strategies that could result in more equitable distribution of
                                           the GSA protection costs.

                                           Analyses of Stock Procurement and Declining Sales - Federal Supply Service
                                           (FSS) officials for a commodity center asked the OIG to assess two separate
                                           issues concerning stock items. The first project examined the factors for not
                                           awarding term contracts, and then assessed the cost of items purchased for
                                           warehouse stock from small-purchase sources and not from those unsuccessful
                                           term contracts. By analyses of specific stock items that were not awarded
                                           contracts, the OIG was able to assure Agency management that contracting
                                           officers' decision not to award contracts due to price unreasonableness was
                                           appropriate and less costly to customers than stock purchases under small-
                                           purchase procedures. The second project responded to management's concern
                                           about declining sales for specific, large sales volume, stock items. By applying
                                           analytical techniques, the OIG was able to provide Agency management
                                           statistical data of major customers' purchasing patterns and identify factors
                                           contributing to the sales decline of the stock items.




10 Semiannual Report To The Congress
Partnering with GSA Management


       Replacement Standards of Light Trucks - The OIG was asked to assess the
       replacement cycle for light trucks and the impact of alternate replacement criteria.
       Using the Agency's fleet database system, the net present value was developed
       based on the overall average miles and age of the trucks. Expenses and revenues
       were evaluated to assess the point at which losses would be incurred.
       Benchmarking techniques were used, in that private-sector firms with sizable
       fleets of light trucks were contacted, as well as State governments, to compare
       their replacement standards with the Agency's fleet standards. We were able to
       provide Agency management with information regarding the most economical
       replacement cycle, and considerations for optimizing light truck usage before the
       replacement cycle.

       Cost Review of a Coast Guard Facility - After the Coast Guard abandoned a
       facility serviced under a pipeline and utility services contract, it appointed GSA to
       negotiate an equitable settlement on the contract because the services were no
       longer necessary. Regional officials asked the OIG to assess the cost of work
       performed under the contract in order to evaluate options available with the
       disposition of the contract. Cost analyses were made on the financial data
       submitted by the contractor, including their economic analysis that was prepared
       prior to entering into the contract and settlement proposal. The OIG provided
       estimates of the contractor's capital investment and return on equity, and also
       provided information on the potential cost liability.

       Information Technology Initiatives - A Federal Telecommunications Service
       manager asked the OIG to assist in researching best management practices taking
       place in the Federal Government and private corporations for managing
       information technology (IT) infrastructure, budget issues, and project initiatives.
       By conducting interviews with several Federal agencies and industry
       representatives and researching Internet sites, both Federal and private-sector, the
       OIG focused on the decisional philosophy of a centralized versus a decentralized
       IT organization, addressing issues of duplication, redundancy of efforts, and
       underutilized economies of scale. We provided Agency management with the
       research results from both Federal and private-sector viewpoints addressing
       global infrastructure, decision-making and funding, interface issues, Internet and
       Intranet initiatives, outsourcing experiences, and the total cost of ownership.

   Task Force Participation. These efforts involve assigning OIG representatives to
   work with GSA team members, and furnishing proactive advice and counsel to Agency
   task forces. By participating as a task force member, we are available to advise
   management at the earliest possible opportunity of potential problems, help ensure that
   appropriate management controls are provided when reinventing Agency systems, and
   offer possible solutions when addressing complex financial issues.
   By working directly with the Agency on task forces we not only contribute our
   expertise and advice, we stay abreast with the Agency's rapidly changing systems, and
   still maintain our ability to independently audit and review programs. Our participation
   is typically as a non-voting advisory member and we maintain a strict policy of
   excluding staff members who have served on developmental task forces from




                                                              Office of Inspector General 11
                                 Partnering with GSA Management


                                       subsequent audits of the same subject areas. Some of the ongoing areas in which the
                                       OIG is involved include:

                                           Continuity of Operations Plan - The Regional Administrator, National Capital
                                           Region, asked the 010 to participate in the region's Continuity of Operations
                                           Plan (COOP) after an audit report disclosed that the COOP was not included in
                                           its Emergency Support program. OSA needed to develop a COOP that would
                                           support its emergency readiness initiatives. The 010 participated in the training
                                           that developed the region's COOP. The OIO also participated on the planning
                                           team that provided training to all levels of regional management and developed
                                           a draft plan to meet the Agency's deadline. The task force is expected to
                                           continue the planning process and the OIO will continue its participation in
                                           FY 1998.

                                           PBS Portfolio Management Profit and Loss Statements - A regional manager
                                           asked the 010 to participate in a task force to better educate their employees
                                           about current profit and loss (P&L) conditions essential for critical decision-
                                           making and effective management of building assets. The 010 assisted in
                                           developing a series of basic reports for each building within its area of
                                           responsibility that presented data affecting the region's profitability. At the
                                           request of the regional manager, the 010 will continue to provide support, as
                                           necessary, on updating the monthly P&L reports.

                                       Alert Reports. These 010 efforts are designed to inform management, prior to the
                                       completion of all analytical work and the issuance of the final audit report, of audit
                                       concerns or potentially serious deficiencies needing immediate management attention.
                                       By this process, we can provide information to the Agency officials in a more timely
                                       manner, affording them an opportunity to take appropriate action. Alert reports
                                       concluded for this period include:

                                           Real Estate Tax Assessments - The 010 completed two audits in this area. In
                                           both instances, the lessors received a decrease in real estate taxes and a tax
                                           credit but these were not passed on to the Oovernment. The OIO's analyses of
                                           tax payments, credit records histories, and lease file documentation determined
                                           that the Oovernment was entitled to a refund of over $1.5 million. Alert reports
                                           were issued so that Agency management could determine whether to recover the
                                           funds before the leases were terminated.

                                       Clearly, OSA managers are seeking to discover new methods for delivering effective
                                       products and services in today's highly competitive markets. Likewise, we are
                                       challenged by the diverse nature of the many assistance requests received.
                                       Nevertheless, the 010 is working with Agency officials to ensure that the alternatives
                                       pursued build upon technologically enhanced delivery methods, providing both the
                                       management tools and financial information systems needed to ensure long-term
                                       operating accountability and effective program outcomes. We believe continuing our
                                       partnering arrangements with Agency officials will maximize taxpayers' return on
                                       investment as OSA strives to become the provider of choice within the Federal
                                       community.




12 Semiannual Report To The Congress
Partnering with GSA Management



   Customer Feedback Received on Internal Audit Products
   Weare continuing our efforts to obtain feedback from our internal customers, as was
   mentioned in the prior Semiannual Report to the Congress. We completed our
   development of Customer Satisfaction Surveys for each of our four types of internal
   reviews: advisory, programmatic, oversight/preventive/regulatory, and consulting
   services. A Customer Satisfaction Survey form is transmitted to our customers along
   with each final internal audit report, and is used to solicit feedback from our
   customers on how well we accomplished our job.

   The following examples are comments received from GSA management officials.
   We are pleased they reflect progress being made by the OIG to meet customer needs:

       "Great job! !"

       "The team was competent, professional and their product report was very
       helpful in streamlining the organization & making better use of personnel."

       "This review was a model for future Management Assistance Reviews."

       "The Audit Operations Staff was very professional and presented their findings
       in a timely manner. It was a good effort on their part and provided us with
       valuable information on the status of our leasing program."

       "Entire Audits Staff very helpful & cooperative & supportive."

   The OIG believes that timely and quality service to our customers is extremely
   important, both in audit services to business line program managers and the Agency
   procurement cadre. We will use our feedback system to provide a quality control
   check on our services. While we have been encouraged that our office continues to
   receive very positive feedback from our customers on the quality of our contract audit
   reports and the level of contract audit services provided, the OIG is striving to
   improve upon its progress.




                                                             Office of Inspector General 13
                                       Reviews of GSA Programs


                                       GSA is a central management agency that sets Federal policy in such areas as
                                       Federal procurement, real property management, and telecommunications. GSA also
                                       manages diversified Government operations involving buildings management, supply
                                       facilities, real and personal property disposal and sales, data processing, and motor
                                       vehicle and travel management. In addition, GSA manages 197 accounting funds and
                                       provides cross-servicing support for client agencies. Our audits examine the
                                       efficiency, effectiveness, and integrity of GSA programs and operations and result in
                                       reports to management. Our internal audits program is designed to facilitate
                                       management's evaluation and improvement of control systems by identifying areas of
                                       vulnerability and providing informational and advisory services.

Significant OIG                        Federal Protective Service Investigation Office
Accomplishments                        The Federal Protective Service (FPS) criminal investigators are a non-uniform special
                                       police force empowered to carry firearms and make arrests while enforcing Federal
                                       laws and building rules and regulations on GSA-controlled property. Criminal
                                       investigators are tasked to conduct investigations of crimes, such as burglaries,
                                       larcenies, and threats or complaints. Other duties include testifying before grand
                                       juries and courts; intelligence gathering; participating on task forces; and serving on
                                       protection details during sensitive cvents such as the Olympics, political conventions,
                                       Presidential Inaugurations, and terrorist trials.
                                       In the aftermath of the bombing of the Federal building in Oklahoma City, the
                                       Department of Justice (DOJ) reported that a higher responsibility was placed on FPS
                                       for security and law enforcement in Federal facilities. The heightened sensitivity of
                                       the Agency's security mission prompted us to review this program activity.

                                       We found that the safety and protection of Federal employees and property is
                                       potentially being compromised because regional criminal investigation activities are
                                       operating autonomously, with no program accountability or measurable performance
                                       standards.
                                       Our review noted that in one region the FPS criminal investigation unit was well
                                       managed, highly motivated, and was an office that placed great emphasis on customer
                                       feedback and intelligence networking. Accordingly, the OIG used this region as the
                                       review benchmark, supplemented with "best practices" followed in other regions. In
                                       most regions, however, the criminal investigators operate in a fragmented
                                       organization with imbalanced staffing resources, disparate lines of authority, and
                                       inconsistent approaches from region to region. We noted:

                                           Regional investigator staffing levels differ widely and range from 2 to 17.

                                           Coverage of Federal buildings per investigator range from 42 buildings to as
                                           many as 642.

                                           Some regions locate criminal investigators in one group under one leader, while
                                           other regions disperse investigators throughout different segments of the
                                           organization.




14 Semiannual Report To The Congress
Reviews of GSA Programs


    Some investigators report to experienced lead investigators, and others report to
    various non-investigative personnel.

The program lacks an effective and useful law-enforcement management information
system. The existing system is not compatible with the Federal Bureau of
Investigation reporting requirements, does not provide useful management
information, and does not capture information about the Criminal Investigation
program. While several regions have independently developed tracking systems, FPS
efforts are underway to acquire a new integrated system.

Also, the Criminal Investigation program needs to have a centralized system to help
identify training needs. Although some regions have provided specialized training
courses to investigators beyond the initial, basic Federal law enforcement training
instruction, others have not. Consistency in training requirements should be
achieved; however, without any comprehensive training record system, and no formal
means for sharing course information, this would prove difficult.
Finally, the Intelligence Sharing program lacks sufficient coordination. Although
FPS has established the program in response to a DOJ report which stressed the
importance of collecting and disseminating security-related intelligence in a timely
and cooperative manner, the program does not yet operate as a fully functional,
coordinated effort. It is critical for the FPS Intelligence Sharing program to distribute
information not only internally within its own component offices, but to be able to
link up with and communicate within the law enforcement community.

Our July 11, 1997 report recommended that the Assistant Commissioner, Office of
Federal Protective Service:
    Establish measurable performance standards, emphasizing threat deterrent
    efforts and customer satisfaction.

    Improve program accountability by establishing a Special Agent-in-Charge
    position in each region and reassessing the inconsistent placement of criminal
    investigators within differing regional organizational structures.

    Issue clear direction regarding the authority limits covering FPS criminal
    investigations.

    Establish a centralized training system and strengthen the coordination of the
    Intelligence Sharing program.

    Consider adopting the benchmarked best practices on a national basis.

The Assistant Commissioner agreed with our recommendations. The audit report is
still in the resolution process.

Fast Track Awards Program
The Fast Track Awards program was established in 1987 to provide prompt
recognition of relatively small achievements that might not be recognized under
normal incentive award procedures. Initially, fast tracks were small cash awards
given to employees to recognize nonrecurring achievements that required extra effort



                                                             Office of Inspector General 15
                                       Reviews of GSA Programs


                                       within or outside the employees' normal job responsibilities. The maximum annual
                                       value of awards to an employee was $300.

                                       Recently, GSA implemented a new Performance Management System that does not
                                       provide for monetary awards at the time of employees' annual evaluation; rather,
                                       managers are encouraged to use fast track awards throughout the performance period
                                       to recognize employee contributions. Accordingly, the definition of fast track awards
                                       was expanded to cover both outstanding nonrecurring efforts and periods of sustained
                                       exceptional performance. Further, the net dollar value for a single award was
                                       increased to a maximum of $2,500, and the annual limit was removed.

                                       For the l2-month period immediately preceding the new Performance Management
                                       System, managers granted over 7,500 fast track awards totaling $1.9 million. In the
                                       subsequent 12-month period, managers granted in excess of 21,500 fast track awards
                                       totaling over $11 million.
                                       Because of the significant increase in the number and value of fast track awards, the
                                       OIG initiated an evaluation to determine if the program has adequate controls. The
                                       review assessed the program controls for proper and timely authorizations for awards,
                                       sufficient documentation, separations in key responsibilities for processing award
                                       transactions, oversight monitoring of awards, and achieving expected program
                                       outcomes.

                                       aUf  report concluded that although the processing of individual award transactions is
                                       adequately controlled, recommended awards should be reviewed more critically as to
                                       the nature of employee accomplishments being recognized by the Fast Track Awards
                                       program. In addition, officials need enhanced award information to properly evaluate
                                       the program's outcomes. Approving officials did not have routine access to the award
                                       information in the Fast Track A wards, Payroll, or Personnel systems, and therefore
                                       relied on manual cuff records to monitor fast track awards.

                                       The report pointed out that program data was available through the GSA Intranet and
                                       in the regional personnel offices that summarized the fast track awards granted to
                                       each employee since March 1996. Properly used, this information is sufficient for the
                                       managers to monitor fast track awards. The Agency can use the same data to monitor
                                       the Fast Track program from a regional, service/staff office, and national perspective.

                                       Given the significant increase in fast track awards and the program's goal of having
                                       awards granted throughout the year as accomplishments occur, our review noted that
                                       management should implement controls that would identify situations where
                                       individual approving officials request large amounts of awards within a defined time
                                       period and require that a higher level official concur with the awards before they are
                                       granted.

                                       The September 18, 1997 report recommended that the Associate Administrator,
                                       Office of Management Services and Human Resources consider setting controls to
                                       ensure that fast track awards are granted for employee accomplishments that meet the
                                       intent of the Fast Track Awards program.

                                       Agency management generally agreed with the recommendation. The audit is still in
                                       the resolution process.




16 Semiannual Report To The Congress
Reviews of GSA Programs



Energy Retrofit for Federal Buildings
One GSA region has pioneered the use of the Utility Incentive program and piloted
the Agency's first completed project at a Federal building. Several other projects are
being planned or considered. In response to a request from management, we
reviewed this region's use of the program to accomplish energy retrofit projects for
Federal buildings in order to achieve energy savings. Under this program, a utility
company may finance an entire project and be paid for their services through a fixed
monthly loan payment charge on the agency's utility bill. Projects are to be designed
so the monthly payments are offset by the energy savings achieved. The program is a
three-phase process consisting of a feasibility study, design and engineering, and
implementation. A project will only be implemented if the payback period is less
than 10 years.

The pilot project used proven technology, and energy savings have exceeded
expectations. Energy usage has been reduced by approximately 20 percent and the
project is more than paying for itself. The agreement with the utility company calls
for payments by GSA to be included on the monthly utility bills and to be calculated
to recover the actual direct cost of providing the service, including a Public Utility
Commission authorized rate of return. GSA is actively monitoring monthly energy
usage reports. Savings under the project have averaged over $50,000 a month, while
the payment to the utility for this energy retrofit measure is approximately
$48,700 per month.

Our June 12, 1997 report concluded that the region is using the Utility Incentive
program to meet its energy conservation goals in a prudent manner and in the best
interest of the Government. Our review of the completed energy retrofit project
showed that the monthly energy savings being achieved will adequately cover the cost
of the incentive program service, and that due care is being taken to minimize the
risks to the Government under this program.

The report did not contain any formal recommendations.

Information Systems and Technology
A Newly Formed Audit Unit
During this period, the OIG established an Information Technology Audit Office
recognizing the ever-increasing role computer systems and automated data
technologies play in the Government business and work environment. This office
will serve to more effectively respond to the mounting tasks placed upon the OIG to
review the GSA service programs, most which are critically dependent on major,
complex computer systems and many of which are integrated with other supporting
systems. Also, this office will be providing any necessary technical support to the
other field audit offices. Furthermore, the current trends continue to promote
Governmentwide business like operations, encouraging forms of decentralized
program offices linked by high-efficiency communications and data transmissions
networking. Information processing controls and security over systems are becoming
more diverse and technologically challenging to the OIG.




                                                           Office of Inspector General 17
                                       Reviews of GSA Programs



                                            Identifying GSA's Information Systems
                                           As one of its first major undertakings, this newly established audit office
                                           completed a survey of the automated information systems within GSA. This
                                           survey represented a significant effort on our part to not only identify the
                                           existing systems, but also assess what functions the systems perform in relation
                                           to the Agency's mission, and what potential risks may exist in the systems. We
                                           defined major systems as those that are critical to accomplishing GSA's
                                           mission, vital to controlling the Agency's assets, or process large numbers of
                                           transactions or dollar volume. Our survey report provides valuable information
                                           and insight for use in the OIG planning for future audits in the information
                                           technology arena.

                                           GSA uses 87 major systems to support virtually all Agency functions. In
                                           addition, many offices have developed numerous smaller systems to help meet
                                           individual needs, perform administrative functions, and interface with the major
                                           systems. Many of the major systems are older and incorporate inefficient
                                           technologies compared to today's advanced systems. Modification and
                                           maintenance of these old systems has become more complex and costly. While
                                           GSA recognizes
                                                  !
                                                            that many of these older systems need to be replaced, it faces
                                           significant technical challenges in trying to complete system development
                                           within reasonable cost and time frames and to provide necessary capabilities to
                                           meet user needs. There is some concern that cost-benefit studies and security
                                           risk assessments may not be adequately performed in the rush to bring new
                                           systems on-line before the year 2000.

                                           In today's technical environment, system security features are needed to protect
                                           against unauthorized access, restrict access by users and systems personnel to
                                           only that data and those functions necessary to perform their specified job
                                           duties, and guard against accidental deletion or modification of data. Security
                                           for many GSA systems may not be adequate, and risk assessments may be
                                           outdated or not fully developed.

                                           A number of smaller systems do not have specific back-up plans and recovery
                                           procedures but rely on the vendor's software or hardware backup procedures.
                                           Most of GSA's larger systems have their own plans and procedures. However,
                                           these plans and procedures need to be periodically tested to ensure that they are
                                           sufficient. While failure of a smaller system might cause the loss of a few hours
                                           of an individual's work, GSA risks severe impact from disruption involving a
                                           large, critical system.


                                       Information Technology Fund Management
                                       The OIG reviewed a regional finance division's practices in managing GSA's
                                       Information Technology (IT) Fund accounts receivable activities, and concluded that
                                       the responsible IT Fund collections unit actively pursues delinquent accounts
                                       receivable in an effort to prevent or minimize cash flow concerns. Furthermore,
                                       collections personnel generally write off small, insignificant amounts in a timely
                                       manner.




18 Semiannual Report To The Congress
Reviews of GSA Programs


Overall, the collection effort was successful because the total write-off was very small
in relation to the total receivables. For FY 1996, delinquent receivables averaged
$26.5 million per month and accounted for 32.7 percent of monthly average billed
receivables. At year-end, accounts receivable personnel wrote off $175,898, or less
than one percent (.0055%) of the average monthly delinquent receivables. However,
the process is not entirely efficient because of the extraordinary amount of time and
effort used to collect Department of Defense (DOD) delinquent receivables.

DOD has a long history of being GSA's largest delinquent customer. During FY 1996
and the first three months ofFY 1997, DOD's average monthly delinquency rate
varied from 75 to 97 percent of the total IT fund delinquency balance. Thus,
technicians expend considerable time and effort working with DOD payment
personnel collecting numerous delinquent amounts.

Since GSA finance managers were already working with DOD finance officials to
find solutions to lessen or eliminate delinquent payments, our April 30, 1997 report
made no recommendations.

Long Distance Telephone Service Costs
Federal agencies have an opportunity to reduce the cost of local telephone company
charges for connecting to the FTS2000 long distance network by as much as
$10 million a year. Our review explored the role the GSA has in reducing long
distance access costs incurred by Federal agencies using the FTS2000 long distance
network. Upon completing our initial survey, we concluded that the Agency has
taken appropriate action to help its customers optimize and consolidate access
arrangements to reduce long distance charges. GSA has chosen to adopt a network
analysis model already developed by the U.S. Department of Agriculture, and is
acting to train regional telecommunications specialists to assist customer agencies in
lowering their long distance costs.

Since Agency management has these actions underway, we have deferred additional
audit work while GSA management proceeds with its proposed action plan.
Accordingly, our May 7, 1997 report did not contain any formal recommendations.

Regional Reinvention Lab
One GSA region was designated a reinvention lab in 1993, and granted the authority
to suspend or deviate from nonstatutory policies and procedures, if that was in the
best interests of the Government. The reinvention lab sought to be a creative,
professional, and productive team empowered to modify work processes, try new
ideas, and encourage innovation, with the ultimate goal of providing the best possible
service to clients.

The region reorganized operations into eight business lines, including four
geographically-oriented service centers, which provide required services to their
clients. In the reorganization, the separate contracting division was eliminated, with
the contracting personnel and functions incorporated into the business lines that
required contracting services. Contracting officers were to participate with the
technical program personnel as members of project teams to plan how best to
complete each project within the context of performing in a more streamlined manner
without violating laws and regulations, thereby achieving better customer service.




                                                           Office of Inspector General 19
                                       Reviews of GSA Programs


                                       The OIG reviewed the regional reinvention lab to determine if GSA had reasonable
                                       management controls built into the reinvention processes to assure the integrity of the
                                       contract function while accomplishing program goals in a streamlined environment.
                                       The evaluation determined that management controls over the contracting activities
                                       associated with the reinvented work processes were generally adequate. Some project
                                       team members, however, circumvented established management controls over
                                       contracting procedures and project teams did not always function as well as originally
                                       envisioned. Contract actions required post approvals and contracting officer
                                       representatives (CaRs) exceeded their authority by altering scopes of work and not
                                       following established funds control procedures. This increased the risk of unlawful
                                       contract actions, claims, misuse of resources, increased operating costs, and had a
                                       negative effect on morale.
                                       In addition, solicitations containing inadequate, incomplete, or ambiguous
                                       specifications resulted in protests and the need to rewrite and reissue solicitations that
                                       generated the expenditure of added effort. Some supervisors need to ensure that
                                       contracting and technical personnel are included in planning and executing projects,
                                       and that lines of authority are clearly established and maintained, to provide necessary
                                       separation of duties.
                                       We noted that where management was supportive of early involvement of contracting
                                       personnel in the project planning process, we saw fewer problems and a more
                                       cooperative atmosphere between project and contracting personnel.
                                       The September 16, 1997 report to the Regional Administrator recommended that:

                                       •   The entire project team, including contracting personnel, be involved in the
                                           planning to assure both that the integrity of the contracting process is maintained
                                           and program requirements are met.

                                       •   When levels of authority are exceeded, the circumstances are reviewed, and
                                           appropriate consequences are affected.

                                       •   Levels of authority are clearly established, including the dollar level of
                                           modifications, which CaRs may negotiate, for all contract types.

                                       The Regional Administrator agreed with our recommendations. The report is still in
                                       the resolution process.

                                       Administration of Real Estate Taxes
                                       The GSA's leases contain a tax adjustment clause that allows lessors to pass on a
                                       share of cost increases when real estate taxes rise. Conversely, when lessors receive
                                       tax credits, rebates, or reduced taxes, the Government is to receive its share of these
                                       benefits. Our review of real estate tax administration disclosed that GSA is not
                                       receiving the benefits of reductions in real estate taxes paid by lessors to local
                                       government taxing authorities. Until recently, real estate taxes tended to increase
                                       each year and rental costs were appropriately adjusted to reflect the higher costs.
                                       However, current trends and conditions are resulting in lessor challenges to tax
                                       assessments and ultimately the lowering of taxes. Although most lessors are quick to
                                       submit their tax bills when the rates rise, they have little incentive to notify GSA of
                                       tax reductions.



20 Semiannual Report To The Congress
Reviews of GSA Programs


Our review in several GSA regions involving a sample of 92 leases resulted in
identifying 31 leases where decreased taxes were not passed on to the Government as
required by the terms of the lease. GSA is owed approximately $4.8 million for these
leases.

The September 26, 1997 report recommended to the Commissioner, Public Buildings
Service, that management modify contract procedures to:

    Collect these monies due from the individual lessors.

    Ensure that the Government shares the lessor's decrease in real estate tax
    payments when market values decline and properties are re-appraised.

The Deputy Commissioner agreed with our recommendations. The audit is still in
resolution. However, GSA has already taken action to review other leases for possible
recovery of tax overpayments.

GSA Office Space Modernization
GSA provides Federal customers a full range of real estate services including property
management, security, and repair and alteration. Public buildings operations are
funded through an annual appropriation from the Federal Buildings Fund (FBF), which
in turn receives funds from the rent charges paid by GSA customers. Generally, space
alterations are performed using repair and alteration money. After funds are distributed
to the regional offices based on established formulas, regional management decides
which projects will be performed using these monies. Renovations to GSA PBS's own
space could be one of these projects.
Because of a perception that PBS space was better than that of its customers, the OIG
initiated a review to determine if the quantity and quality of PBS space was in fact
superior to that of its customers. For ease of comparison, we limited our evaluation to
major GSA organizational offices.

We concluded that overall PBS space is no better than the Agency's other major
organizational components. Exceptions observed in Central Office and in two regional
buildings were noted in our report but considered to be minor. Accordingly, the July 9,
1997 report did not contain any formal recommendations.

Inventory Cost Management
The GSA can reduce costs by more efficiently managing the inventory of more than
7,600 commonly used items it offers to Federal agencies throughout the Government.
The Agency relies on a computer system to calculate ordering quantities and stock to
minimize inventory levels while still maintaining sufficient inventory to meet customer
demands. In FY 1996, Stock program sales approached $1 billion, and the program
had an ending inventory of $160 million. The Agency's goal is to provide a high level
of customer service while minimizing inventory investment and operating costs.

In our review of the program management information systems, we found that,
although the computer system provides useful and important information, there are
weaknesses in the mathematical variables and calculation methodologies used to
compute economic order quantity (EOQ). Demand projections varied significantly
from actual demand and the inventory cost data relied on outdated information.



                                                            Office of Inspector General 21
                                       Reviews of GSA Programs


                                       These weaknesses cause inventory levels to be higher than necessary to meet
                                       customer demands.

                                       In our September 25, 1997 report, we recommended that the Commissioner, Federal
                                       Supply Service:
                                       •    Improve the accuracy and reliability of EOQ to reduce inventory levels and
                                            operating costs.

                                            Evaluate demand projections, and update procurement and inventory holding
                                            cost data.

                                       •    Assess the need for EOQ for all items.

                                       The Commissioner agreed with the recommendations in the report. The audit is still
                                       in the resolution process.

                                       Fleet Maintenance Procurements
                                       GSA manages a fleet of about 150,000 vehicles and provides related services for over
                                       75 Federal agencies and their contractors. The Agency's maintenance control centers
                                       in each region oversee vehicle maintenance performed by commercial vendors.
                                       These maintenance centers authorize repairs, maintain vehicle history records, and
                                       assist Government drivers in locating qualified vendors. Repair and maintenance
                                       costs exceed $80 million annually.
                                       To check transactions involving repair and maintenance of fleet vehicles, we used
                                       computer-assisted techniques to examine the fleet database to identify any
                                       irregularities such as repetitive or expensive repairs to the same vehicle, warranty
                                       coverage, unusual vendor qualifications or characteristics. We reviewed over
                                       2,000 repairs costing about $2 million.
                                       Our review did not identify any improper transactions. We also verified by a random
                                       test sample of vendors that GSA was dealing with legitimate businesses, and that
                                       authorizing technicians took adequate steps to inquire about proposed repairs and
                                       used sound judgment to ensure fair pricing. Accordingly, our September 4, 1997
                                       report did not contain any formal recommendations.

                                       Fleet Management Performance Measurement
                                       We reviewed GSA's Interagency Fleet Management System (IFMS) "Cost Per Mile"
                                       performance measure repOlted in the Agency's FY 1996 Annual Report. "Cost Per
                                       Mile" is a measure of the cost of providing Federal customers quality vehicles and
                                       fleet management services at competitive prices. The GSA is required to recover the
                                       full cost it incurs in acquiring and maintaining assigned vehicles including fuel, labor,
                                       and supplies for maintenance and repairs, depreciation and overhead, and does so
                                       through a reimbursable charge to its customer agencies. The IFMS also provides a
                                       policy/oversight function affecting all Federal fleet operations.

                                       We ensured that the Agency's policies, procedures, and practices appropriately
                                       identified all the various operating and other cost components of the IFMS fleet
                                       activities. Additionally, we determined that "Cost Per Mile" could be used




22 Semiannual Report To The Congress
Reviews of GSA Programs


successfully as a Government Performance and Results Act performance measure. In
order to meet its overall mission of providing its customers with quality vehicles and
Heet services at competitive costs, the IFMS "Cost Per Mile" performance measure
serves as a measure of competitiveness. Using this rate, the IFMS can analyze and
compare itself to its commercial competitors as well as against prior years' results.
Thus, we also determined that thi's measure provided relevant, meaningful, and timely
data regarding GSA's fleet management.

The April 18, 1997 report was advisory in nature and did not contain any formal
recommendations.

Personal Property Donation Program
GSA is responsible for administering the Surplus Property Donation program. This
period, we completed evaluations of the operations at two State agencies to ensure
that they are acquiring, storing, and distributing surplus property in compliance with
Federal guidelines.

In one review, we found that the State erroneously retained the proceeds from an
auction of surplus property, which should have been paid to GSA. We also noted that
the same State was not properly accounting for each item in its inventory and was
overcharging some of the donees through service charges that exceeded allowable
charges contained in the State donation plan.

In the second review, we found that the State's method for documenting and tracking
donated property was incomplete and inaccurate. Also, inventory needs to be
reconciled and controls need to be in place to determine the accurate value of the
inventory.
In our reports, dated July 25, 1997 and August 12, 1997, we recommended specific
actions to correct identified deficiencies. These included recommendations that the
cognizant Assistant Regional Administrator, Federal Supply Service and Acting
Regional Administrator:
    Ensure that the State reimburse to GSA the $19,000 owed from its auction sale.

    Instruct the State to adopt an adequate inventory method.

    Abide by the tenets of the State plan regarding the imposition of service charges
    to donees.

    Ensure that State officials comply with the inventory controls and accounting
    system as set forth in the Government property management regulations.

Management generally agreed with the recommendations in the reports. The audits
are still in the resolution process.




                                                            Office of Inspector General 23
                                   Emerging Issues and Concerns


                                       In our last report we noted that two issues had emerged warranting special mention:
                                       PBS's $680 million "rent shortfall" and concerns arising from the Agency's
                                       compromise of debt in connection with its sale of the U.S. Custom House to the City
                                       of Boston. These matters are of continuing concern and are discussed below.
                                       In addition, we highlight two other areas that we believe pose risks to the Agency's
                                       programs and which we will be examining in the coming period: the adequacy of
                                       management controls and the curtailment of posta ward audit rights and elimination
                                       of pricing certifications in MAS contracts.

                                       PBS Rent Shortfall
                                       In its September 9, 1996, FY 1998 budget submission to Congress, GSA reported
                                       that its forecast of rent revenue for FY 1996 and FY 1997 exceeded what the actual
                                       rent income will be by $680.5 million (an amount later revised upward). For both
                                       years, Congress had authorized construction, repair and alteration, and related
                                       building operations activities spending from the FBF based on GSA's forecasts of
                                       rent revenue. Consequently, the Agency could not fund all the projects authorized
                                       by the Congress. Although the FBF has a balance, Congress limits the amount of
                                       this revenue that can be spent on authorized activities. GSA's overestimate of
                                       revenue resulted in projects being deferred.
                                       The OIG continues to work with the Agency on several projects that should produce
                                       more accurate rent revenue forecasting. On August 1, 1997, we issued a report
                                       addressing PBS's projection of an additional revenue gap for the remainder of
                                       FY 1997. In addition, several audits in process should enhance the Agency's
                                       reliance on outputs from a new information system, including more accurate space
                                       assignment records and rental rates. Future audit plans will include a review of the
                                       entire rent structure and the challenges facing the FBF.

                                       Review of PBS's Projection of the Additional Revenue Gap
                                       In May 1997, the OIG became aware of a PBS revenue gap discussion paper that
                                       indicated an additional gap for FY 1997. PBS looked at the current year rent receipts
                                       and increased the estimate by $78.6 million based on an extrapolation of actual
                                       receipts through April 30, 1997 to the end of the fiscal year. Our review of this
                                       estimate concluded that:
                                           PBS's projection may be understated by $28 million because it contains overly
                                           optimistic assumptions especially on adjustments for bad debt expense and a
                                           credit correction. In our opinion, documentation did not support increasing
                                           revenue for these adjustments. We projected the gap to be approximately
                                           $106 million, projecting actual receipts through May 31, 1997 to the end of the
                                           fiscal year.

                                           PBS was lacking documentation for the assumptions as well as the methodology
                                           used for developing the projection of the additional revenue gap. Documenting
                                           the assumptions and methodology is important for verifying and monitoring the
                                           projection through the end of the year. Further, PBS does not have documented
                                           procedures in place for forecasting revenues and expenses for budgetary
                                           purposes to assure consistency in the budget process from year-to-year.




24 Semiannual Report To The Congress
Emerging Issues and Concerns


      PBS did not have an oversight or review process of the additional gap
      projection. Many individuals and offices were responsible for providing data
      used in developing the additional revenue gap. However, only one individual
      had the responsibility of combining the data for the projection. We saw no
      indication of any review of the PBS projection. Monitoring the projection, such
      as whether income is being collected as anticipated, must be an ongoing effort
      and should not be the responsibility of just one individual.

  On July 2,1997, PBS reported the additional revenue gap to Congress as an
  adjustment of $100 million. As a result, we consider the disclosure presented to
  Congress to be in line with our projection and therefore reasonable. The difference
  between the PBS projection and ours is not material.

  Agency Task Group on Revenue Forecasting
  The OIG participated in an Agency task group (Rent Revenue Forecasting "GO"
  Team) which was established in March 1997, with the objective of examining the
  rent revenue forecasting process and developing recommendations for improving the
  process. The team presented their results to the PBS Commissioner in mid-July
  1997 and recommended the establishment of a full-time revenue team that would
  continuously monitor the revenue forecast and act as the review and coordination
  point with all applicable Central Office functions. Overall responsibility for the
  revenue forecasting function would be assigned to the PBS Office of Financial and
  Information Systems (formerly known as the Office of the Controller).
  The report also pointed out the critical need for the documentation of a revenue
  forecasting methodology. Policy changes, technical assumptions, and source data
  used in a revenue projection must be documented.
  We have been informed that the recommendations were accepted in total and actions
  were taken to implement them.
  PBS/Arthur Andersen Study
  To improve its financial management capabilities, PBS retained Arthur Andersen
  (AA) as an independent consultant to review ongoing initiatives, specifically with
  respect to the area of estimating rental income and expenses for the FBF.
  On July 3, 1997, AA presented its interim status report, which made preliminary and
  long-term recommendations with respect to key issues identified with organization,
  management information and analysis, documentation, pricing factors, and political
  environment.
  Review by the General Accounting Office
  The House of Representatives Subcommittee on Public Buildings and Economic
  Development requested that the General Accounting Office (GAO) verify GSA's
  explanation for the rent revenue shortfall, the sufficiency of the Agency's actions for
  improvement, and the impact the current solution might have on the future of the
  FBF. GAO's review is in process. We are in continuing contact with GAO to
  ensure that our related work is properly coordinated.




                                                             Office of Inspector General 25
                                   Emerging Issues and Concerns


                                       Audit of Rent Billing Data

                                       This review is a joint venture undertaking between the PBS and the OIG. The
                                       objective of the review is to answer the following questions:

                                           Is the PBS information system data accurate for the quantities, classification,
                                           location, and occupancy of space in PBS-owned and leased buildings?

                                       •   What is the impact on the rent income for each building included in the audit
                                           sample, and are discrepancies of such a magnitude as to distort either the PBS or
                                           GSA financial statements?

                                       •   If a substantial number of discrepancies are found, what are the systemic causes,
                                           and how might they be addressed?

                                       PBS provided essential support and assistance by:

                                       •   Assigning a senior PBS official to serve as point of contact;

                                           Generating electronic and hard copy rent billing data;

                                           Providing the services of a statistician;

                                           Acquiring and facilitating access to necessary building and space drawings,
                                           occupant detail, and real estate files;

                                           A warding contracts and task orders for space to be measured; and

                                           Providing PBS employees who are knowledgeable of the buildings' structures
                                           and systems to expedite on-site inspections by the contractor and OIG
                                           personnel.

                                       The fieldwork is substantially complete and the OIG is in the process of preparing a
                                       report.

                                       Audit of PBS's Rent System
                                       The OIG is performing an audit of the new rent system that is currently being
                                       developed by GSA. The review is still in the survey stage. This program review
                                       was initiated because of the growing concern by customer agencies about the
                                       escalating cost of rent and services, and the anticipated changes to the system. With
                                       greater budgetary constraints, agencies are more closely looking at rates charged by
                                       GSA.
                                       The review will examine major aspects of the proposed rent system changes, to
                                       include:

                                       •   Use of occupancy agreements with agencies, to clarify the conditions and
                                           amount of space, cost, and fees;

                                       •   Streamlining the number of space classifications;




26 Semiannual Report To The Congress
                                                                                            aEa


Emerging Issues and Concerns


      Lease rates based on cost instead of market value, with an identified
      management fee for PBS's cost;

      Government-owned space based on annual appraisals; and

      Differing rental rates within the same building tailored to reflect the specific
      uses.


  Focus on Management Controls
  With the recent efforts to reinvent Government and streamline operations to serve
  the customer as quickly and efficiently as possible, and with the declining
  workforce, GSA has been aggressive in empowering staff to look for ways to reduce
  administrative barriers to promptly respond to customer needs. In simplifying
  existing rules, operating procedures, and guidelines, management eliminated many
  of the checks and balances previously part of the control system, and now relies on a
  few broad controls for documentation and review of procurement actions. Overall,
  these efforts have improved customer service and satisfaction. However, since there
  are now fewer controls in place, it is important that they be consistently followed.
  In several ongoing reviews, we have identified problems arising from a lack of
  management controls being exercised, particularly in the procurement arena.
  Procurement authority is being delegated to the front line, and employees are urged
  to use credit cards to expedite vendor payment. Many employees who are now
  authorized to pay for supplies and services with credit cards are making
  procurements without the full benefit of the experience and training in procurement
  regulations. While GSA's customers seem to be pleased with the prompt results and
  services they receive, we believe that management is overlooking breakdowns in
  some checks and balances inherent to a system of controls which would help deter
  fraud, waste, and abuse.
  We have found in our recent preventive and management control reviews that the
  Agency needs to do more to ensure that program assets are adequately safeguarded,
  efficiently used, and appropriately monitored, and that expected outcomes are
  achieved. Eliminating controls may have been a contributing factor to several audit
  findings being referred to the Office of Investigations for follow-up on possible
  irregularities, and to an apparent violation of the Antideficiency Act identified in an
  ongoing review. In light of these identified problems and GSA's new culture, we
  plan to shift more audit resources to the review of controls over the next year.

  Final General Services Acquisition Regulation (GSAR) Rule
  Implementing Federal Acquisition Streamlining Act (FA SA)
  and Clinger-Cohen Act Changes in the MAS Program
  On August 2], 1997, the Agency issued a final rule which implemented certain
  changes made by the FASA, Pub. L. No. 103-355, and the Clinger-Cohen Act, Pub.
  L. No. 104-106, in the MAS program. During this reporting period, we worked with
  the Agency on issues related to the final rule. We continue to have significant
  reservations regarding two provisions of the final rule relating to postaward
  contractual audit authority and pricing certifications.



                                                               Office of Inspector General 27
                                       Emerging Issues and Concerns


                                         Specifically, our chief continuing concern with the final rule's provisions centers
                                         around the limitations placed on postaward audit authority over information
                                         submitted during negotiations. The final rule, like the revised interim rule, continues
                                         to provide for contractual access to MAS contractors' records for the purpose of
                                         verifying compliance with the price reduction, Industrial Funding Fee, and
                                         overbillings provisions for 3 years after final payment. The final rule, however, does
                                         not provide for automatic postaward access to information submitted during
                                         negotiations as to each MAS contract. Instead, the rule provides that contracting
                                         officers may modify contracts to add this audit authority only if they determine that a
                                         "likelihood of significant harm exists to the Government" without such audit access
                                         and if the modification is approved by the Agency's senior procurement executive.
                                         Such audit access would be available only for 2 years from award of the relevant
                                         contract. The OIG feels that the reliability of pricing information used to negotiate
                                         MAS contracts continues to be problematic and has repeatedly stated its concerns
                                         with limiting audit authorities.

                                         We are also concerned with the final rule's elimination of the certification relating to
                                         pricing information submitted for negotiations purposes. Prior to the February 1996
                                         GSAR revisions, MAS contracts contained a provision by which all offerors certified
                                         that the data submitted with their offers was current, accurate, and complete as of the
                                         date when price negotiations are concluded. In response to industry pressure and
                                         partially in anticipation of the review of procurement certifications directed by the
                                         Clinger-Cohen Act, GSA eliminated this certification in the interim rule of
                                         February 16, 1996. The final rule also reflects the elimination of this pricing
                                         certification. The OIG's experience has shown that certifications serve as an integral
                                         part of the proper notice provided to the individual who signs the certification that
                                         the Government relies on the accuracy of the information provided and that he or she
                                         will be held accountable for his or her failure to make a good faith effort to insure the
                                         adequacy of the disclosures. The OIG believes that eliminating pricing certifications
                                         further exposes the MAS program to overpricing and fraud.

                                         As reflected in comments to the GSA on both the interim and the revised interim
                                         rule, the OIG feels that the changes relating to audit limitations and elimination of
                                         pricing certifications are detrimental to the Government's ability to achieve favorable
                                         pricing for products sold under the MAS program. Because we feel that these
                                         changes may increase the MAS program's vulnerability to overpricing and fraud, our
                                         Office has planned and expects to undertake in the upcoming reporting period
                                         several significant audit initiatives in this connection.

                                         Agency's Authority to Compromise Debt
                                         (Sale of U.S. Custom House)
                                         In our two most recent semiannual reports, we reported on our concerns arising from
                                         GSA's sale of the U.S. Custom House to the City of Boston (the City). In 1987,
                                         GSA sold the historic building to the City as surplus property and accepted a
                                         $9.9 million mortgage on it. The City defaulted on the debt in 1991. Three years
                                         later, GSA agreed to restructure the debt on more favorable terms for the City and to
                                         forgive $361,010 in penalties on the original note. In January 1996, GSA agreed to
                                         settle the debt for a cash buyout of about $6 million, even though the City had made
                                         no principal payments on the loan.




28 Semiannual Report To The Congress
Emerging Issues and Concerns


  We questioned GSA's waiver of the penalty payments and its compromise of the
  original debt. It is our position that the Federal Claims Collection Act requires that
  GSA not compromise a debt of over $100,000 without the prior approval of the DOJ.
  GSA management disagrees with our position.

  Because of our concern that the Agency's continued adherence to its views on the
  scope of the Administrator's compromise authority had repercussions for future
  credit transactions involving surplus real property, we sought an authoritative
  opinion on the issue from the DO]' s Office of Legal Counsel (OLC). When OLe'
  declined the request on the grounds that it considered the matter to be an intra-
  agency dispute, we asked for an advisory opinion from the GAO. Subsequent to that
  request, the Office of Management and Budget (OMB) undertook a review of this
  issue and, on May 19, 1997, the Office of General Counsel of OMB issued an
  opinion which supported the Agency's authority to compromise the City of Boston's
  debt. We have not yet received GAO's opinion.




                                                            Office of Inspector General 29
                                           Prevention Activities


                                       In addition to detecting problems in GSA operations, the OIG is responsible for
                                       initiating actions to prevent fraud, waste, and abuse and to promote economy and
                                       efficiency.

Significant Preaward Audits            The OIG preaward audit program provides information to contracting officers for
                                       use in negotiating contracts. The pre-decisional, advisory nature of preaward audits
                                       distinguishes them from other audits. This program provides vital and current
                                       information to contracting officers, enabling them to significantly improve the
                                       Government's negotiating position and to realize millions of dollars in savings on
                                       negotiated contracts. This period, the OIG performed preaward audits of
                                       85 contracts with an estimated value of $210 million. The audit reports contained
                                       over $45 million in financial recommendations.
                                       This period, we audited a 5-year extension to a MAS contract for the sale of
                                       scaffolding work and service platforms. The projected Governmentwide sales for
                                       the contract extension are $20.2 million. Based on the audit findings, we
                                       recommended that $1.7 million in funds be put to better use. The audit also
                                       disclosed that the contractor had overcharged its GSA schedule customers as a result
                                       of violations of the price reduction clause of its original MAS contract. A separate
                                       report will be developed to quantify the overcharges.
                                       Other significant contract audits during this period included claims for increased
                                       costs allegedly caused by the Government during the construction and renovation of
                                       Federal buildings. Three of the more significant audits contained proposed prices
                                       totaling $17.5 million, and recommended adjustments of $16.5 million. In an audit
                                       of a claim for increased costs during construction, we advised the contracting officer
                                       that the entire amount claimed by a prime contractor and its subcontractors was not
                                       supported by appropriate accounting records, and was not allowed by contract
                                       provisions and Federal guidelines. In an audit of another claim, we advised the
                                       contracting officer that the contractor overstated its labor hours and hourly rates, did
                                       not establish it was entitled to overhead costs, and did not provide any
                                       documentation to support other costs it claimed. Finally, in an audit of a claim for
                                       increased costs due to Government-caused delays and disruptions during a
                                       renovation project, we advised the contracting officer that a tile subcontractor's
                                       claim should be adjusted for duplicate costs, costs incurred due to delays caused by
                                       the prime contractor, costs not attributable to any delays, and overstated overhead
                                       costs.

Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse, and to
                                       reinforce employees' roles in helping to ensure the integrity of Agency operations.
                                       This period we presented five briefings attended by 58 regional employees. These
                                       briefings explain the statutory mission of the OIG and the methods available for
                                       reporting suspected instances of wrongdoing. In addition, through case studies and
                                       slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                                       and other Federal agencies and thus help to prevent their recurrence.

Hotline                                The OIG Hotline provides an avenue for concerned employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                                       buildings, as well as brochures, encourage employees to use the Hotline.




30 Semiannual Report To The Congress
                             Prevention Activities


                         During this reporting period, we received 1,755 Hotline calls and letters. Of these,
                         84 complaints warrated further GSA action, 16 warranted other Agency action, and
                         1,655 did not warrant action.

Implementation Reviews   The OIG performs independent reviews of implementation actions, on a selected
                         basis, to ensurc that management's corrective actions in response to OIG
                         recommendations are being accomplished according to established milestones. This
                         period, the OIG performed eight implementation reviews. In five of the reviews, all
                         of the recmmendations had been fully implemented. In the other three reviews,
                         some of the recommendations had not been fully implemented.




                                                                                   Office of Inspector General 31
                              Review of Legislation and Regulations


                                       The Inspector General Act of 1978 requires the OIG to review existing and proposed
                                       legislation and regulations to determine their effect on the economy and efficiency of
                                       the Agency's programs and operations and on the prevention and detection offraud
                                       and mismanagement.

                                       During this period, the OIG reviewed 241 legislative matters and 27 proposed
                                       regulations and directives. The OIG provided significant comments on the following
                                       regulatory items:

                                       •   Draft General Services Administration Acquisition Manual. We provided
                                           comments on the Agency's draft update of the GSA Acquisition Manual. We
                                           suggested certain changes to the part relating to Improper Business Practices
                                           and Conflicts of Interest, wherein contracting officials report their suspicions of
                                           irregularities or allegations to the OIG. We also made several comments on the
                                           coverage relating to the MAS contracting program. We asked that the
                                           requirement for contracting officials to document, typically in the price
                                           negotiation memorandum, the award of MAS contracts at less than most-
                                           favored customer pricing be continued. We also suggested that consideration be
                                           given to adding nonmandatory guidance to the manual to further define the
                                           phrases "best interests of the government" and "fair and reasonable pricing" in
                                           the context of pricing policies for MAS contracts.

                                       •   Federal Acquisition Regulation (FAR) Case 95-029, FAR Part 15 Rewrite,
                                           Group B. We provided comments to the FAR Council on the proposed rewrite
                                           of FAR Part 15, Contracting by Negotiation, relating mostly to the field pricing
                                           support coverage. We suggested that the current regulatory language, which
                                           provides that contracting officers shall request field pricing support before
                                           negotiating contracting actions over $500,000, be retained. The proposed rule
                                           would provide that contracting officers "should request field pricing assistance
                                           when the information available at the buying activity is inadequate to determine
                                           a fair and reasonable price." We felt the current language, by providing
                                           contracting officials with sufficient flexibility while affirmatively setting out the
                                           $500,000 threshold, more appropriately emphasizes and encourages the use of
                                           field pricing support to aid in the negotiation of significant contracting actions.

                                       •   Proposed Rulemaking, "Public Availability of Agency Records and
                                           Informational Materials." We provided comments to GSA regarding its
                                           proposed rules implementing the Freedom of Information Act (FOIA). We
                                           raised the concern that the proposed rules do not address the changes made to
                                           the FOIA by the Electronic Freedom of Information Act Amendments of 1996.
                                           We suggested several changes to the rules to bring them into compliance with
                                           that Act. We also addressed several issues regarding the GSA proposed rules
                                           regarding the production of present or former GSA employees in response to
                                           subpoenas or other demands in civil or administrative cases. We commented
                                           that there is some question whether GSA has the authority to apply its
                                           regulations to former employees. We also suggested that the proposed
                                           regulation should be crafted to apply in cases where the United States is not a
                                           party. This situation might arise when a party brings an action pursuant to the
                                           qui tam provisions of the civil False Claims Act, 31 U.S.c. § 3729 et seq.




32 Semiannual Report To The Congress
Review of Legislation and Regulations


        Proposed Freedom of Information Act Handbook. We commented on several
        parts of the GSA proposed handbook for FOIA requestors. We noted that the
        draft we reviewed appeared to place burdens on the Agency beyond those
        required in the FOIA and Electronic Freedom of Information Act Amendments.
        Our position is that the language of the handbook should mirror that of the
        statutes so that requestors clearly understand their rights and GSA's obligations
        once a request is made.




                                                              Office of Inspector General 33
                        Statistical Summary of DIG Accomplishments



                                       Audit Reports Issued
                                       The OIG issued 152 audit reports. The 152 reports contained financial
                                       recommendations totaling $55,267,993, including $45,727,157 in recommendations
                                       that funds be put to better use and $9,540,836 in questioned costs. Due to GSA's
                                       mission of negotiating contracts for Governmentwide supplies and services, most of
                                       the recommended savings that funds be put to better use would be applicable to other
                                       Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of September 30,
                                       1997. Eighteen reports more than 6-months old were awaiting management decisions
                                       as of September 30, 1997; all of them were preaward audits which are not subject to
                                       the 6-month management decision requirement. Table 1 does not include 23 reports
                                       excluded from the management decision process because they pertain to ongoing
                                       investigations.




                               Table 1. Management Decisions on OIG Audits
                                                                               Reports with                  Total
                                                               No. of            Financial                 Financial
                                                              Reports        Recommendations            Recommendations

  For which no management decision
  had been made as of 4/1/97
      Less than 6 months old                                     57                    43                   $16,088,010
     More than 6 months old                                       18                   16                     4,710,607
  Reports issued this period                                    152                    90                    ~~J67,291
  TOTAL                                                         227                   149                   $76,066,610
  For which a management decision
  was made during the reporting
  period
      Issued prior periods                                       57                    43                   $16,088,010
      Issued current period                                     108                    58                    38,812,~E
  TOTAL                                                         165                   101                   $54,907,327
  For which no management decision
  had been made as of 9/30/97
      Less than 6 months old                                     44                    32                   $16,448,676
      More than 6 months old                                     18                    16                     4,710,607
  TOTAL                                                          62                    48                   $21,159,283




34 Semiannual Report To The Congress
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports With Financial
                                       Recommendations
                                       Tables 2 and 3 present the audits identified in Table I as containing financial
                                       recommendations by category (funds to be put to better use or questioned costs).




                        Table 2. Management Decisions on OIG Audits with
                         Recommendations that Funds be Put to Better Use
                                                                       No. of                          Financial
                                                                      Reports
                                                                     ----------_._-
                                                                                                   Recommendations
                                                                                          ----------------


For which no management decision had
been made as of 411/97
    Less than 6 months old                                                 28                           $ 9,939,570
    More than 6 months old                                                 16                              4,710,607
Reports issued this period                                                 74                            45,727,157
TOTAL                                                                    118                            $60,377,334
For which a management decision was
made during the reporting period
    Recommendations agreed to by
    management based on proposed
    • management action                                                                                 $45,106,144
    • legislative action
    Recommendations not agreed to
    by management                                                                                              4,892
TOTAL                                                                      75                           $45,111,036
For which no management decision had
been made as of 9/30/97
    Less than 6 months old                                                 27                           $10,555,691
    More than 6 months old                                                 16                             4,710,607
TOTAL                                                                      43                           $15,266,298




                                                                                                Office of Inspector General 35
                        Statistical Summary of DIG Accomplishments



                                   Table 3. Management Decisions on OIG
                                        Audits with Questioned Costs
                                                                No. of                 Questioned       Unsupported
                                                               Reports                   Costs             Costs
  For which no management decision
  had been made as of 4/1/97
      Less than 6 months old                                       15                 $ 6,148,440         $-
      More than 6 months old                                        o                          o
  Reports issued this period                                       16                   9,540,836
  TOTAL                                                            31                 $15,689,276         $-
  For which a management decision
  was made during the reporting
  period
      Disallowed costs                                                                $13,826,070   *     $-
      Costs not disallowed                                                              1,243,368
  TOTAL                                                            26                 $15,069,438**       $-
  For which no management decision
  had been made as of 9/30/97
      Less than 6 months old                                        5                 $ 5,892,985
      More than 6 months old                                        o                          o
  TOTAL                                                             5                 $ 5,892,985         $-

    *$6,202,899 of this amount was recovered in civil settlements, as reported in Table 5.
  **Includes $5,273,147 that management decided to seek that exceeded recommended amounts.




36 Semiannual Report To The Congress
    Statistical Summary of DIG Accomplishments



                     Investigative Workload
                     The OIG opened 164 investigative cases and closed 163 cases during this period. In
                     addition, the OIG received and evaluated 81 complaints and allegations from sources
                     other than the Hotline that involved GSA employees and programs. Based upon our
                     analyses of these complaints and allegations, OIG investigations were not warranted.

                     Referrals
                     The OIG makes criminal referrals to the Department of Justice or other authorities for
                     prosecutive consideration and civil referrals to the Civil Division of the Department
                     of Justice or U.S. Attorneys for litigative consideration. The OIG also makes
                     administrative referrals to GSA officials on certain cases disclosing wrongdoing on
                     the part of GSA employees, contractors, or private individuals doing business with the
                     Government.




                   Table 4. Summary of OIG Referrals

Type of Referral                               Cases                                 Subjects
Criminal                                         20                                      33
Civil                                             8                                      11
Administrative                                   85                                     148
TOTAL                                           113                                     192



                     In addition, the OIG made 13 referrals to other Federal activities for further
                     investigation or other action and 37 referrals to GSA officials for informational
                     purposes only.

                     Actions on OIG Referrals
                     Based on these and prior referrals, 8 cases (12 subjects) were accepted for criminal
                     prosecution and 3 cases (5 subjects) were accepted for civil litigation. Criminal cases
                     originating from OIG referrals resulted in 13 indictments/informations and
                     16 successful prosecutions. OIG civil referrals resulted in 3 cases being accepted for
                     civil action and 5 case settlements. Based on OIG administrative referrals,
                     management debarred 28 contractors, suspended 5 contractors, and took 17 personnel
                     actions against employees.




                                                                                 Office of Inspector General 37
                        Statistical Summary of OIG Accomplishments



                                         Monetary Results
                                         Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                         restitutions payable to the U.S. Government as a result of criminal and civil actions
                                         arising from OIG referrals.

                                         In addition, the OIG identified for recovery $4,836,039 during the course of its
                                         investigations, predominately from seizure of diverted Federal surplus property.




                                    Table 5. Criminal and Civil Recoveries

                                                               Criminal                                  Civil
              Fines and Penalties                             $487,533                               $
              Settlements or Judgments                                                                6,791,533*
              Restitutions                                      162,326
              TOTAL                                           $649,859                               $6,791,533

  * This amount includes $6,202,899 reportable pursuant to section 5(a)(8) of the Inspector General Act as management
  decisions to disallow costs. See Table 3.




38 Semiannual Report To The Congress
APPENDICES
                     Appendix 1- Significant Audits From Prior Reports


Under the Agency audit management decision process, the          The recommendation involves developing and implementing
GSA Office of Management and Workplace Programs, Office          methods to instruct and assist cardholder~ appropriate
of Management Services, Administrative Policy and                officials, and program administrators in proper use of each
Information Management Division, is responsible for tracking     type of credit card. It is scheduled for completion by
implementation of audit recommendations after a management       February 15, 1998.
decision has been reached. That office furnished the following
status information.
                                                                 PBS Information Systems Strategy
Ten audits highlighted in prior Reports to the Congress have     Period First Reported: April 1, 1996 to September 30, 1996
not yet been fully implemented; all are being implemented in
                                                                 The review identified the importance of defining, planning,
accordance with currently established milestones.
                                                                 and coordinating the procurement of new information systems.
                                                                 The report contained two recommendations; one has been
Telecommuting Centers                                            implemented.
Period First Reported: October 1, 1996 to March 31, 1997
                                                                 The remaining recommendation requires ensuring that the
The review focused on GSA's role in the Federal                  GSA pilot systems and planned software initiative are
Government's telecommuting initiatives, and the recovery of      technically compatible and are not duplicative. It is scheduled
costs and the methods being used to recover costs. The report    for completion by February 15, 1998.
contained two recommendations; they have not yet been
implemented.
                                                                 Purchase of Telecommunications Services
One recommendation involves expanding the functions of the
office responsible for the program. The other recommendation     Period First Reported: October 1, 1995 to March 31, 1996
involves developing billing rates to recover costs and           The review advised management of opportunities to better
developing a mechanism for billings. Both are scheduled for      serve telecommunications customers. The report contained six
completion by November 15, 1997.                                 recommendations; five have been implemented.

                                                                 The remaining recommendation involves reviewing both the
Debarment Program                                                Purchase of Telecommunications Services and MAS programs
Period First Reported: October 1,1996 to March 31,1997           to determine whether the best interests of the customer are
                                                                 served by continuing each. It is scheduled for completion by
The review identified opportunities for improving the
                                                                 October 15, 1997.
debarment program.         The report contained two
recommendations; they have not yet been implemented.
                                                                 Stock Program Management Information
One recommendation involves modifying the new contractors'
performance database and is scheduled for completion by
                                                                 System
June 15, 1998. The other recommendation involves providing       Period First Reported: October 1,1995 to March 31, 1996
debarment program training to contracting officers and is        The review identified opportunities for improvement in the
scheduled for completion by May 15, 1998.                        accuracy and reliability of information provided to stock
                                                                 program managers.         The report contained four
Charge Card Programs                                             recommendations; two have been implemented.

Period First Reported: October 1, 1996 to March 31, 1997         The recommendations include improvements in the accuracy
The review examined general management, card issue, and          and reliability of data and the continued development of an
user controls over three of the Agency's charge card programs.   information system. They are scheduled for completion by
The report contained one recommendation; it has not yet been     April IS, 1999 and January 15, 1998.
implemented.




                                                                                                   Office of Inspector General 41
                     Appendix I - Significant Audits From Prior Reports



Aircraft Management                                                 Federal Protective Service
Period First Reported: October 1, 1995 to March 31, 1996            Period First Reported: October 1, 1993 to March 31, 1994
The review identified opportunities for improvement in the          Two OIG reviews found that GSA needed to strengthen its
GSA program for assisting civilian agencies with the                control over firearms and improve internal security. One
management and cost effectiveness of their aircraft operations.
                                                                    report was implemented as of September 30, 1994. The
The report contained five recommendations; two have been
implemented.                                                        remaining report contained 14 recommendations; 13 have been
                                                                    implemented.
One recommendation involves the development of a logistics
system; it is scheduled for completion by November 15, 1997.        The remaining recommendation involves making
Another recommendation concerns the identification of aircraft      improvements to alarm systems. It is scheduled for completion
data necessary for making informed decisions and is scheduled       by January 15, 1998.
for completion by March 15, 1998. The final recommendation
consists of ensuring the reliability of data. It is scheduled for
completion by October 15,1997.                                      Contract Workload Management
                                                                    Period First Reported: April 1, 1992 to September 30, 1992
Construction Projects
                                                                    This review revealed the need to develop a strategy for
Period First Reported: April 1, 1995 to September 30, 1995
                                                                    addressing procurement workload concerns. The report
The review identified opportunities for improvement in the
                                                                    contained one recommendation; it has not yet been
bidding and contracting practices of major GSA construction
                                                                    implemented.
projects. The report contained eight recommendations; seven
have been implemented.
                                                                    This recommendation involves establishing a working group to
The remaining recommendation involves an evaluation of the          develop a system for addressing identified issues and to give
method used to establish rent for special purpose space and is      attention to the MAS program concerns. It is scheduled for
scheduled for completion by October 15, 1997.                       completion by September 15, 1998.




42 Semiannual Report To The Congress
                               Appendix 1/- Audit Report Register

                                                                                                        Financial
                                                                                                   Recommendations ---
                                                                                                 .~~~----------.-'--   --"


                                                                                              Funds To          Questioned
Date of        Audit                                                                          Be Put To       (Unsupported)
Report         Number                                   Title                                 Better Use          Costs

(Note: Because some audits pertain to contracting award or actions which have not yet been
completed, the financial recommendations to these reports are not listed in this Appendix.)

PBS Management Consulting Reviews
OS/29/97      A70625         Review of Pipeline and Utility Costs for the Coast Guard
                             Facility at Governors Island, New York

05129/97       A70640        Management Assistance Review on the Development of an
                             Allocation System for Rental Rates for FPS' Services
                             (Region 2)

08/26/97       A70313        Management Consulting Services: Review of Pricing
                             Evaluation Factors and Net Pricing Value Discount Factors
                             for Electric Power Purchase in Region 1, Solicitation Number
                             GS-OlP-97-BWD-0053

FSS Management Consulting Reviews
04/30/97       A72105        Management Assistance Review on Sales Decline of Items
                             Managed by the General Products Center

07/28/97      A71514         Consulting Report: Review of IFMS Light Truck
                             Replacement Standards

07/31/97       A72122        Management Assistance Review of Region 7's Procurement
                             Practices for Federal Supply Service Stock Items

09/29/97       A71541        Management Assistance Review,Vendor Performance

FTS Management Consulting Reviews
09/19/97       A73011        Management Consulting Review of Information Technology
                             Initiatives for the Regional Information Officer in the
                             National Capital Region

PBS Internal Audits
04/09/97       A61238        Interim Review of Cost Charging Practices for the Atlanta        $475,000
                             Federal Center, Region 4

06/10/97       A62131        Review of the Assignment of Space in Government Owned
                             Buildings, Region 7

06/12/97       A72425        Audit of Energy Retrofit for Buildings Using the Utility
                             Incentive Program, Pacific Rim Region

06/17/97       A70918        Audit of Real Estate Taxes, Gateway Building, 3535 Market
                             Street, Philadelphia, PA 19104, Lease Number GS-03-B-6148


                                                                                                   Office of Inspector General 43
                                       Appendix /1- Audit Report Register

                                                                                                         Financial
                                                                                             ----
                                                                                                    Recommendations
                                                                                                    -----------"---.---------
                                                                                               Funds To          Questioned
Date of       Audit                                                                            Be Put To       (Unsupported)
Report        Number                                   Title                                   Better Use          Costs

06/24/97      A61558         Review of the Use of Term Construction Contracts, Great
                             Lakes Region

07/09/97      A70303         Is PBS Space Better Than Space Provided to PBS Customers?

07/10/97      A71513         Audit of Liquidated Damages Clauses in Great Lakes Region
                             Construction Contracts

07/11197      A60645         Audit of the Federal Protective Service's Criminal
                             Investigation Program

07/21197      A70635         Postaward Review of Selected Leases, Northeast and
                             Caribbean Region

07/21/97      A70648         Audit of Real Estate Taxes: 101 Marietta Tower, Atlanta,
                             Georgia 30303, Lease Number GS-04B-15730

07/29/97      A70647         Postaward Lease Review: 101 Marietta Tower, Atlanta,
                             Georgia 30303, Lease Number GS-04~~15730

08/01/97      A73313         Audit of PBS' Projection of the Additional Revenue Gap

08/07/97      A60921         Report on the Mid-Atlantic Region's Lease Services Contract

09/16/97      A72440         Audit of Rocky Mountain Region, Public Buildings Service
                             Reinvention Lab

09117/97      A62504         Audit of Lease Tax Rate Adjustments in California, Pacific
                             Rim Region

09/26/97      A70627         Audit of Real Estate Tax and Janitorial Service Contract
                             Payments

09/29/97      A63038         Review of Commercially Provided Skilled Craft Manpower
                             Services

09/29/97      A73010         Audit of the Decentralization of Contracting Functions in the
                             National Capital Region

PBS Contract Audits
04/02/97      A70634         Preaward Audit of Architect and Engineering Services
                             Contract: Richard Meier & Partners, Contract Number GS-
                             02P-92-CUC-0029(N)

04/02/97      A73612         Audit of Claim for Equitable Adjustment: Real Estate
                             Technical Advisors, Inc., Contract Number GS-
                             I1P94MJD0030

44 Semiannual Report To The Congress
                      Appendix 1/- Audit Report Register

                                                                                                  Financial
                                                                                     ~~~--
                                                                                             Recommendations
                                                                                             .....   ~-----------




                                                                                        Funds To          Questioned
Date of    Audit                                                                        Be Put To       (Unsupported)
Report     Number                              Title                                    Better Use          Costs

04/03/97   A71528   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Muller & Muller, P.C., Ltd., Contract
                    Number GS-05P-96-GBD-0006

04/03/97   A72450   Preaward Audit of a Claim for Increased Costs: Azteca
                    Construction, Inc., Subcontractor to Morse Diesel
                    International, Inc., Contract Number GS-09P-95-KTC-0032

04/04/97   A71527   Pre award Audit of Architect and Engineering Services
                    Contract: Schmidt Associates, Inc., Contract Number GS-
                    05P-96-GBC-OOI3

04/04/97   A71828   Preaward Audit of Cost or Pricing Data: Barnes & Dodge,
                    Inc., Contract Number GS06P94GYC0076(N)

04/04/97   A72436   Audit of Real Estate Tax Adjustments: WRC Properties, Inc.,                                      $23,564
                    Lease Number GS-09B-90017, Calendar Years 1991 Through
                    1995

04/04/97   A72437   Audit of Real Estate Tax Adjustments: WRC Properties, Inc.,                                      $15,201
                    Lease Number GS-09B-91267, Calendar Years 1993 Through
                    1995

04/04/97   A73615   Preaward Audit of Cost or Pricing Data: Hillian Brothers and
                    Sons, Inc., RFP Number GS-11P97MKCOOlO NEG. 8(A)

04/07/97   A72452   Limited Scope Preaward Audit of Proposed Overhead and
                    Direct Labor Rates: Beyaz and Patel, Inc., Solicitation
                    Number GS-09P-96-KTD-001O

04/08/97   A72455   Limited Scope Preaward Audit of Proposed Overhead and
                    Direct Labor Rates: K. F. Davis Engineering, Inc.,
                    Solicitation Number GS-09P-96-KTD-0002

04/08/97   A73610   Audit of Claim for Increased Cost: National Fire Protection,
                    Inc., a Subcontractor to John J. Kirlin, Inc., Contract Number
                    GS-11P91MKC-0196"U"

04/10197   A70636   Preaward Audit of a Delay Claim: B&W Mechanical
                    Contractors, Inc. and Regency Electric Company, Inc.,
                    Subcontractors to the Haskell Company, Contract Number
                    GS-04B-31363

04111197   A72428   Preaward Audit of a Claim for Increased Costs: Alexander
                    Manufacturing, Inc., Subcontractor to the George Hyman
                    Construction Company, Contract Number GS-09P-93-KTC-
                    0034


                                                                                                      Office of Inspector General 45
                                       Appendix 1/- Audit Report Register

                                                                                                       Financial
                                                                                                  Recommendations
                                                                                                    ----~-~~ ..- - - - . - - - - - . - -
                                                                                             Funds To            Questioned
Date of       Audit                                                                          Be Put To        (Unsupported)
Report        Number                                   Title                                 Better Use              Costs

04/16/97      A70633         Preaward Audit of Change Order Proposal: Trataros
                             Construction, Inc., Contract Number GS-02P-96-DTC-
                             0033(N)

04/16/97      A71530         Preaward Audit of Architect and Engineering Services
                             Contract: Smith Hinchman & Grylls Associates, Inc.,
                             Consultant to Schmidt Associates, Inc., Contract Number
                             GS05P96GBC0013

04/22/97      A71835         Preaward Audit of Cost or Pricing Data: All Pro Construction,
                             Inc., Contract Number GS06P94GYC0076(N)

04/22/97      A72442         Preaward Audit of Change Order Proposal: Rollie R. French,
                             Inc., Subcontractor to The George Hyman Construction
                             Company, Contract Number GS-09P-93-KTC-0034

04/28/97      A71805         Audit of Claim for Increased Costs: TJ. Ahrens Excavating,
                             Inc., Subcontractor to Morse Diesel International, Inc.,
                             Contract Number GS06P94GYC0037

04/29/97      A71825         Preaward Audit of Cost or Pricing Data: J.E. Dunn
                             Construction Company, Contract Number GS06P94-
                             GYC0076(N)

04/30/97      A72427         Preaward Audit of a Claim for Increased Costs: Rollie R.
                             French, Inc., Subcontractor to The George Hyman
                             Construction Company, Contract Number GS-09P-93-KTC-
                             0034

04/30/97      A72462         Preaward Audit of a Claim for Increased Costs: Aire Sheet
                             Metal, Inc .. Subcontractor to Schram Construction Inc.,
                             Contract Number GS-09P-93-KTC-0034

05/01197      A72454         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Electrical and Control System
                             Engineering. Inc., Solicitation Number GS-09P-96-KTD-
                             0002

05101197      A72460         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Winzler and Kelly Consulting Engineers,
                             Solicitation Number GS-09P-96-KTD-0002

05/07/97      A71832         Audit of Claim for Increased Costs: Morse Diesel
                             International, Inc., Contract Number GS06P95GZC0501




46 Semiannual Report To The Congress
                       Appendix 1/- Audit Report Register

                                                                                                  Financial
                                                                                              Recommendations
                                                                                       --~----~--       --~-"--




                                                                                         Funds To         Questioned
Date of     Audit                                                                        Be Put To      (Unsupported)
Report      Number                             Title                                     Better Use         Costs

05/08/97    A72453    Limited Scope Preaward Audit of Proposed Overhead and
                      Direct Labor Rates: Consulting West, Solicitation Number
                      GS-09P-96-KTD-0003

05/09/97    A72456    Preaward Audit of a Claim for Increased Costs: Superior Tile
                      Company, Subcontractor to The George Hyman Construction
                      Company, Contract Number GS-09P-93-KTC-0034

05/09/97    A72457    Preaward Audit of a Claim for Increased Costs: Schram
                      Construction, Inc., Subcontractor to The George Hyman
                      Construction Company, Contract Number GS-09P-93-KTC-
                      0034

05/16/97    A72459    Limited Preaward Audit of Cost or Pricing Data: Abide
                      International, Inc., Solicitation Number GS-09P-95-KTC-
                      0038

05123/97    A70638    Preaward Audit of Architect and Engineering Services
                      Contract: HLW International, LLP, Contract Number
                      GS-02P-93-CUC-0062

06/02/97    A70308    Preaward Audit of Architect and Engineering Services
                      Contract: JSA, Inc., Solicitation Number GS-OIP-96-BZC-
                      0031

 06/02/97   A73018    Preaward Audit of Architect and Engineering Services
                      Contract: Meta Engineers, P.C., Solicitation Number
                      GS 11 P96EGD0005

 06/06/97   A72466    Limited Scope Preaward Audit of Proposed Overhead and
                      Direct Labor Rates: Brayton & Hughes Design Studio,
                      Solicitation Number GS-09P-95-KTC-0029

 06/09/97   A72461     Preaward Audit of a Claim for Increased Costs: Charles D.
                       Walker Manufacturing Company, Subcontractor to Alexander
                       Manufacturing, Inc., and the George Hyman Construction
                       Company, Contract Number GS-09P-93-KTC-0034

 06110/97    A73616    Preaward Audit of Change Order Proposals: Adkins &
                       Company, Inc., Contract Number GS-03P93DXC0044

 06113/97    A71837    Preaward Audit of Cost or Pricing Data: IBS Industries, Inc.,
                       Contract Number GS06P97GXC0062

 06117/97    A72464    Limited Scope Preaward Audit of Proposed Overhead and
                       Direct Labor Rates: Moore Ruble Yudell, Solicitation
                       Number GS-09P-95-KTC-0029


                                                                                                    Office of Inspector General 47
                                       Appendix 1/- Audit Report Register

                                                                                                         Financial
                                                                                                    Recommendations
                                                                                              ~nds-To -------QueStioned-
i>ate of      Audit                                                                            Be Put To       (Unsupported)
Report        Number                                   Title                                   Better Use          Costs

06/17/97      A72470         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Frederick Brown Associates,
                             Solicitation Number GS-09P-95-KTC-0029

06123/97      A71833         Audit of Proposed Rates: Corrigan Company Mechanical
                             Contractors, Subcontractor to Morse Diesel International,
                             Inc., Contract Number GS06P95GZC0501

06/24/97      A71536         Preaward Audit of Indefinite Quantity Contract: National
                             Institute of Building Sciences, Solicitation Number GS-IIP-97-
                             AQD-OOll

06/25/97      A72445         Preaward Audit of a Claim for Increased Costs: Morse Diesel
                             International, Inc., Contract Number GS-09P-95-KTC-0032

06/26/97      A72465         Preaward Audit of a Claim for Increased Costs: Lawson
                             Mechanical Contractors, Subcontractor to Morse Diesel
                             International, Inc., Contract Number GS-09P-95-KTC-0032

06/26/97      A72471         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Tsuchiyama & Kaino, Inc., Solicitation
                             Number GS-09P-95-KTC-0029

06126/97      A73017         Preaward Audit of Cost or Pricing Data: Twigg Corporation,
                             Contract Number GS-IIP95MKC0028

06127/97      A71811         Audit of Claim for Increased Costs, Miscellaneous
                             Subcontractors to: Morse Diesel International, Inc., Contract
                             Number GS06P94GYC00037

06/27/97      A72472         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: John A. Martin & Associates,
                             Solicitation Number GS-09P-95-KTC-0029

07/11197      A71533         Preaward Audit of Claim for Increased Costs: M. A. Mortenson
                             Company, Contract Number GS-05P-93-GBC-0022

07/11/97      A71803         Audit of Claim for Increased Costs: Nicholson Construction
                             Company. Contract Number GS06P94GYC0037

07114/97      A70310         Preaward Audit of Architect and Engineering Services
                             Contract: Dufresne-Henry, Inc., Solicitation Number GS-OIP-
                             96-B ZC-0031

07118/97      A71539        Preaward Audit of a Claim for Increased Costs: Terstep
                            Company, Inc., Subcontractor to D. L. Woods Construction,
                            Inc., Contract Number GS05P91GBC0057


48 Semiannual Report To The Congress
                     Appendix 1/- Audit Report Register

                                                                                                 Financial
                                                                                             Recommendations
                                                                                                         --,,-------
                                                                                     ----.---~-----.~------.---




                                                                                        Funds To         Questioned
Date of    Audit                                                                        Be Put To      (Unsupported)
Report     Number                              Title                                    Better Use         Costs

07/18/97   A72474   Limited Scope Preaward Audit of Proposed Overhead and
                    Direct Labor Rates: Iyer & Associates, Solicitation Number
                    GS-09P-96-KTC-OOlO

07/22/97   A71804   Audit of Claim for Increased Costs: Rodio/ICOS St. Louis
                    Joint Venture, Subcontractor to Morse Diesel International,
                    Inc., Contract Number GS06P94GYC0037

07/29/97   A71838   Preaward Audit of Cost or Pricing Data: Boese Electric, Inc.,
                    Contract Number GS06P94GYC0076(N)

07/30/97   A70644   Pre award Audit of Cost or Pricing Data: Cole Consulting
                    Corp., Subcontractor to Lehrer McGovern Bovis, Inc.,
                    Contract Number GS-02P-92-CUC-0028(N)

07/31197   A71820   Audit of Claim for Increased Costs: Morse Diesel
                    International, Inc., Contract Number GS06P94GYC0037

07/31197   A72467   Limited Scope Pre award Audit of Proposed Overhead and
                    Direct Labor Rates: Peterson Construction Company, Inc.,
                    Contract Number GS-08P-96-JFC-0004

07/31197   A72476   Limited Scope Pre award Audit of Proposed Overhead and
                    Direct Labor Rates: Development One, Inc., Solicitation
                    Number GS-09P-96-KTC-00ll

08/05/97   A71540   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: Gibraltar Design, Inc., Solicitation Number
                    GS-05P-97-GAD-0020

08/05/97   A73617   Refund From The Committee For Purchase From People Who Are
                    Blind Or Severely Disabled, Agreement Number GS-02F-61511

08/07/97   A71846   Preaward Audit of Cost or Pricing Data: Boese Electric, Inc.,
                    Contract Number GS06P94GYC0076(N)

08/12/97   A71542   Preaward Audit of Supplemental Architect and Engineering
                    Services Contract: KJWW Engineering Consultants, P.C.,
                    Contract Number GS05P97GAD0027

08/14/97   A73022   Preaward Audit of Change Order Proposal: Turner
                    Construction Company, Subcontractor to BPT
                    Metroview Assocs., L.P., Contract Number GS-
                    11P91AQC0060




                                                                                               Office ofInspector General 49
                                       Appendix /1- Audit Report Register

                                                                                                         Financial
                                                                                             ~
                                                                                                  Recommendations
                                                                                                     ..-
                                                                                                 --~--.--   ..--._--_. - - - - - - - - - -
                                                                                                            ----_

                                                                                             Funds To               Questioned
Date of       Audit                                                                          Be Put To            (Unsupported)
Report        Number                                   Title                                 Better Use                 Costs


08/18/97      A72127         Preaward Audit of Change Order Proposal: Centex
                             Construction Company, Inc., Contract Number GS-07P-96-
                             JUC-0032

08/19/97      A71844         Preaward Audit of Cost or Pricing Data: Eliason & Knuth of
                             Kansas City, Inc., Contract Numbe GS06P94GYC0076(N)

08122197      A70646         Preaward Audit of a Delay Claim: Beacon/Pro Con Joint
                             Venture, Contract Number GS-02P-94-CUC-0070(N)

08127/97      A70650         Preaward Audit of Change Order Proposal: P. T. & L.
                             Contracting Corporation, Subcontractor to Crow Jones
                             Construction Company, Contract Number GS-02P-96-DTC-0058

08128/97      A71849         Pre award Audit of Cost or Pricing Data: Griffin Services,
                             Inc., Contract Number GS06P94GXC0089

08128/97      A72463         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Gruen Associates, Solicitation Number
                             GS-09P-95-KTC-0029

08128/97      A72481         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Kal Architects, Solicitation Number GS-
                             09P-96-KTD-00l1

08/29/97      A70645         Pre award Audit of Cost or Pricing Data: Lehrer McGovern
                             Bovis, Inc., Contract Number GS-02P-92-CUC-0028(N)

09/03/97      A72485         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Raw International, Solicitation Number
                             GS-09P-96-KTD-OOll

09/16/97      A72488         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Nasland Engineering, Solicitation
                             Number GS-09P-96-KTD-OOll

09/17/97      A73025         Pre award Audit of Sole Source Contract: Gilford Technology
                             Corporation, Contract Number GS-II P97MKC0037

09118197      A72489         Limited Scope Preaward Audit of Proposed Overhead and
                             Direct Labor Rates: Store, Matakovich & Wolfberg,
                             Solicitation Number GS-09P-96-KTD-0011

09122/97      A70649         Preaward Audit of a Delay Claim: Consolidated Electric, Inc.,
                             Subcontractor to Beacon/Procon, Joint Venture, Contract
                             Number GS-02P-94-CUC-0070(N)



50 Semiannual Report To The Congress
                       Appendix /1- Audit Report Register

                                                                                                Financial
                                                                                            Recommendations
                                                                                     ----------------------------

                                                                                       Funds To         Questioned
Date of    Audit                                                                       Be Put To      (Unsupported)
Report     Number                               Title                                  Better Use         Costs


09123/97   A70652     Pre award Audit of Change Order Proposal: Mackroyce
                      Dismantling, Ltd., Subcontractor to Crow Jones
                      Construction Company, Contract Number GS-02P-96-DTC-0058

FSS Internal Audits
07/09/97   A70922     Audit of SA TO Travel, Travel Management Center,
                      Philadelphia, PA, Contract No. GS-04F-92-ETS-0729

07125/97   A72118     Audit of the Federal Personal Property Donation Program,
                      State of Oklahoma

08/12/97   A70921     Audit of the Personal Property Donation Program, Virginia
                      State Agency, Mid-Atlantic Region

09/04/97   A72403     Preventative Review of Fleet Management, Maintenance
                      Control Center Procurements

09125/97   A73302     Inventories Can Be Reduced by Using More Accurate and
                      Reliable Data on Economic Order Quantities and Safety Stock

FSS Contract Audits
04/04/97   A70920     Price Adjustments on Multiple Award Schedule Contract:
                      JLG Industries, Inc., Contract Number GS-07F-3576A for the
                      Interim Period June 1, 1997 Through February 28, 2001

04/18/97   A70628     Postaward Audit of Multiple Award Schedule Contract:                                   $6,448
                      Clayton Associates, Inc., Contract Number GS-07F-8188B,
                      for the Interim Period June 1, 1994 Through January 31, 1997

05/09/97   A6J561     Interim Period Postaward Audit of Multiple Award Schedule
                      Contract: Tibbet, Inc., Contract Number GS-00F-5285A

05/09/97   A71504     Interim Period Postaward Audit of Multiple Award Schedule
                      Contract: Tibbet, Inc., Contract Number GS-OOF-5086A

05122/97   A62127     Postaward Audit of Multiple Award Schedule Contract:
                      Micro Focus, Incorporated, Contract Number
                      GSOOK90AGS5251

05128/97   A70637     Postaward Audit of Multiple Award Schedule Contract:                                   $2,640
                      National Labnet Company, Contract Number GS-24F-1309C
                      for the Interim Period April 7, 1995 Through March 31, 1997

OS/28/97   A70639     Postaward Audit of Multiple Award Schedule Contract:
                      Achievement Products, Inc., Contract Number GS-07F-8459C for
                      the Interim Period March 1, 1995 Through December 31, 1996


                                                                                            Office of Inspector General 51
                                       Appendix 1/- Audit Report Register

                                                                                                      Financial
                                                                                                  Recommendations
                                                                                            --------.---------~---~---




                                                                                             Funds To         Questioned
Date of       Audit                                                                          Be Put To      (Unsupported)
Report        Number                                   Title                                 BcttcrUsc          Costs

05/30/97      A72104         Interim Postaward Audit of Multiple Award Schedule
                             Contract: Mannington Carpet, Inc., Contract Number GS-
                             00F-8442A

06/11/97      A61827         Postaward Audit of Multiple Award Schedule Contract:                              $1,005,458
                             Alexander Manufacturing Company, Contract Number GS-
                             07F-3956A for the Period February 1, 1992 Through
                             October 31,1995

06/13/97      A62130         Pre award Audit of a Claim for Equitable Adjustment:
                             Technical Assistance International, Inc., Contract Number
                             GS-07F-51460

06/16/97      A70927         Preaward Audit of Cost or Pricing Data: JIL Information
                             Systems, Inc., Proposal No. GSC-TFGD-97-1012

06/20/97      A51552         Postaward Audit of Multiple Award Schedule Contract:                                $570,853
                             Globe Firefighters Suits, Contract Number GS-07F-4405A for
                             the Period February 22,1991 Through April 30, 1994

06124/97      A70928         Pre award Audit of Cost or Pricing Data: Criticom, Inc.,
                             Solicitation No. GSC-TFGD-97-1014

07/09/97      A71505         Postaward Audit of Multiple Award Schedule Contract: Life                           $801,842
                             Fitness, Inc., Contract Number GS-07F-6059A for the Period
                             February 27,1992 Through December 31,1996

07123/97      A62117         Postaward Audit of Multiple Award Schedule Contract:
                             AT&T Global Information Solutions, Contract Number
                             GSOOK93AGS5677

07128/97      A70307         Limited Scope Postaward Audit of Multiple Award Schedule
                             Contract: Edward Ochman Systems, Contract Number GS-
                             00F-5350A

07129/97      A61849         Postaward Audit of Multiple Award Schedule Contract:                                $225,665
                             Hytorc, Division of Unex Corporation, Contract Number GS-
                             06F-77977 for the Period November 1, 1989 Through
                             October 3 1, 1994

07/30/97      A71819         Postaward Audit of Commercial Acquisition of Multiple                               $55,694
                             Products Contract: Hytorc of Virginia, Inc., Contract Number
                             GS-06F-78361 for the Period November 1, 1994 Through
                             December 18, 1996




52 Semiannual Report To The Congress
                       Appendix /1- Audit Report Register

                                                                                                  Financial
                                                                                             Recommendations
                                                                                       -.--------~-    --- -.---. ------"------------
                                                                                        Funds To              Questioned
Date of    Audit                                                                        Be Put To         (Unsupported)
RepOl't    Number                               Title                                   Better Use                 Costs

08/06/97   A70304     Limited Scope Preaward Audit of Multiple Award Schedule
                      Contract: Digital Equipment Corporation, Solicitation
                      Number FCI-96-DL0001B

8/18/97    A70651     Preaward Audit of a Claim: Minolta Corporation, Contract
                      Number GS-00F-32025

08/26/97   A72129     Postaward Audit of Multiple Award Schedule Contract:
                      Hydrolab Corporation, Contract Number GS-00F-7366A

09/04/97   A61829     Postaward Audit of Multiple Award Schedule Contract:                                          $136,507
                      O'Sullivan Industries, Inc., Contract Number GS-00F-5047 A for
                      the Interim Period April!, 1991 Through February 29, 1996

09/10/97   A71535     Interim Period Postaward Audit of Multiple Award Schedule
                      Contract: Mercury Marine, A Division of Brunswick
                      Corporation, Contract Number GS-07F-74520

09/23/97   A71853     Postaward Audit of Multiple Award Schedule Contract: Noritsu
                      America Corporation, Contract Number GS-00F-4507 A for the
                      Period February 7,1991 Through January 31,1996

09/24/97   A20945     Postaward Audit of Multiple Award Schedule Contract:                                          $803,979
                      Canon U.S.A., Incorporated, Contract Number GS-00F-06327
                      for the Period October 25, 1988 to September 30, 1990

09/24/97   A71526     Price Adjustments on Multiple Award Schedule Contract:
                      Domore Corporation, Contract Number GS-00F-5232A for the
                      Interim Period December 1, 1997 Through January 31, 2001

09/29/97   A71543     Preaward Audit of Multiple Award Schedule Contract:
                      Advance Machine Company, Solicitation Number 7FXG-Z3-
                      93-7927-B

09/29/97   A71544     Preaward Audit of Multiple Award Schedule Contract: Belson
                      Manufacturing Co., Inc., Solicitation Number 7FXG-C3-92-7801-B

09/29/97   A72135     Price Adjustments on Multiple Award Schedule Contract:
                      Motorola. Incorporated, Contract Number GS-35F-ll25-D for
                      the Interim Period October 1, 1997 Through September 30,1998

ITS Contract Audits
04/07/97   A73609     Preaward Audit of Multiple Award Schedule Contract: Innova
                      Communications, Inc., Contract Number GS-35F-1098D




                                                                                                Office ofInspector General 53
                                       Appendix 1/- Audit Report Register

                                                                                                      Financial
                                                                                                 Recommendations
                                                                                           --~~.---~~----------   --~.---




                                                                                            Funds To          Questioned
Date of       Audit                                                                         Be Put To       (Unsupported)
Report        Number                                  Title                                 Bettcr Usc          Costs


04/24/97      A71212         Preaward Audit of Cost and Pricing Proposal: The Logistics
                             Company, Inc., Task Order Request GSC-TFGE-97-2002

07123/97      A42133         Postaward Audit of Multiple Award Schedule Contract:
                             KnowledgeWare, Inc., Contract Number GSOOK91AGS5857

FrS Internal Audits
05/07/97      A73005         Audit of FTS2000 Service Aggregation

06124/97      A70908         Audit of the Federal Telecommunications Service's Time and
                             Attendance Practices, Mid-Atlantic Region, Philadelphia, PA

09124/97      A71502         Audit of Federal Acquisition Services for Technology
                             Program

09124/97      A71834         Advisory Review of GSA's Acquisition and Management of
                             Wireless Telephone Service

Frs Contract Audits
06/06/97      A73619         Preaward Audit of Cost or Pricing Data: Symbiont, Inc.,
                             RFP Number GSC-TFGD-97-101O

06/16/97      A73021         Preaward Audit of Cost or Pricing Data: Alphatech
                             Corporation, Solicitation Number GSC-TFGD-97 -1009

Other Internal Audits
04/18/97      A62713         Limited Audit of the Federal Supply Service's "Cost
                             Per Mile" Performance Measure

04/30/97      A62129         Audit of Receivables, Collections and Write-Offs,
                             Information Technology Fund

06/10/97      A62709         Arthur Andersen LLP. Fiscal Year 1996 Management Letter
                             Comments and Suggestions for Consideration

08/12197      A72707         Implementation Guide for Statements of Federal Accounting
                             Standards

08125/97      A73303         Survey of GSA's Automated Information Systems

09/18/97      A71826         Review of Controls Over GSA's Fast Track Awards Program

09129/97      A62708         Audit of the General Services Administration's External
                             Services Program



54 Semiannual Report To The Congress
 Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit            The GSA Office of Management and Workplace Programs,
Recommendations, of the National Defense Authorization Act,    Office of Management Services, Administrative Policy and
(Public Law 104-106), this appendix identifies those audit     Information Management Division furnished the following
reports where final actions remain open 12 months after the    information.
report issuance date.

                             Audits with Management Decisions Made after February 10, 1996
                                      for Which No Final Action Has Been Completed


Contract Audits
Date of      Audit
Report        Number                                           Title

02121/96      A60624       Preaward Audit of a Termination Settlement Proposal: ESC Poly tech Consultants, Inc., Contract
                           Number GS-07P-92-HUC-0067

02/21/96      A60631       Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number GS-OOK-
                           89AHD0008

02129/96     A62445        Preaward Audit of a Claim: lAM/Environmental, Inc., Subcontractor to Hibbitts Construction, Inc.,
                           Contract Number GS-07P-91-JXC-001O

03/01/96     A60327        Report on Audit of Subcontractor's Claim for Increased Costs: Kendland Company Inc., Contract
                           Number GSOIP93BZC0003

03/01/96     A61519        Preaward Audit of Architect and Engineering Services Contract: Van Dijk, Pace, Westlake &
                           Partners, Contract Number GS05P95GBC0018

03/05/96     A61825        Report on Audit of Proposal for Initial Pricing of FAA LAAS, GPS Augmentations and International
                           Standards, RFP No. GSC-KEGD-95-1009: Wilcox Electric, Inc., Kansas City, Missouri

03/13/96     A60918        Preaward Audit of Multiple Award Schedule Contract: Development Dimensions International, Inc.,
                           Solicitation Number 2FYG-H-94-0004-B

03/15/96     A60928        Preaward Advisory Report on Agreed Upon Procedures: Arinc Incorporated, Solicitation Number
                           GSC-KEGD-95-1 009

03/18/96     A60318        Report on Audit of Claim for Increased Costs: Maron Construction Co., Inc., Contract Number
                           GSOIP93BZC0003

03/19/96     A61224        Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009:
                           Integrinautics Corporation, Palo Alto, California

03/20/96     A61231        Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009: United
                           Airlines - UAL Services, San Francisco, California

03/21/96     A60933        Preaward Audit of Federal Information Processing Support Services Contract: E-Systems, a
                           Raytheon Company, Solicitation Number GSC-KEGD-95-1009

03/22/96     A60931        Preaward Audit of Federal Information Processing Support Services Contract: Project Management
                           Enterprises, Inc., Solicitation Number GSC-KEGD-95-1009


                                                                                                Office of Inspector General 55
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending


Date of         Audit
Report          Number                                             Title

03/26/96        A61222       Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1 009:
                             Advanced Management Technology, Inc., Washington, D.C.

03/28/96        A61228       Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1 009:
                             Racal Avionics, Ltd. London, England
    -     - - - -- - - -
                                                                                                               --~--"~"----"~


04/10/96        A31549       Postaward Audit of Multiple Award Schedule Contract: GF Office Furniture, Ltd., Contract
                             Number GS-00F-07017 for the Period December 27, 1988 Through September 30,1991

04/23/96        A63622       Preaward Audit of Change Order Proposal: Truland Systems Corporation, a Subcontractor to
                             Turner Construction Company, Contract Number GS-I1P91AQC0060

04/24/96        A60939       Preaward Audit of Federal Information Processing Support Services Contract: Rockwell
                             International Corporation, Solicitation Number GSC-KEGD-95-1009

04/25/96        A63615       Audit of Claim for Increased Cost: M & M Welding & Fabricators, Inc., Subcontractor to John
                             J. Kirlin, Inc., Contract Number GS-IIP90MKCOI29 "NEG"

05/06/96        A63628       Preaward Audit of Cost or Pricing Data: Permanent Solution Industries, Inc., Solicitation
                             Number RFP-GSI1P96MJC0009

05/06/96        A63631       Preaward Audit of Cost or Pricing Data: Tex/AM Construction Co., Inc., Solicitation Number
                             GS-I1P95MQC0024 "Neg"

05/07/96        A53644       Audit of Claim for Increased Cost: Reliable Engineering Services, Inc., a Subcontractor of the
                             George Hyman Construction Company, Contract Number GS-IIP92MKC0062

05/10/96        A62478       Audit of Termination Settlement Proposal: TEEMS, Inc., Contract Number GS-07F-58620

05/13/96        A63627       Preaward Audit of Cost or Pricing Data: Landis & Gyr Powers, Inc., Solicitation Number
                             GS 11P95MQC0025

05113/96        A63629       Preaward Audit of Architect and Engineering Services Contract: The Temple Group, Inc.,
                             Solicitation Number GS IlP95EGD0017

05113/96        A63632       Preaward Audit of Cost or Pricing Data: Kottman, Inc., Solicitation Number GSC-KRGB-9602

05117/96        A41843       Postaward Audit of Multiple Award Schedule Contract: Memorex Computer Supplies, Contract
                             Number GS-02F-6109A for the Period May 8, 1992 Through March 31,1994

OS/20/96        A62440       Preaward Audit of a Claim: Hibbitts Construction, Inc., Contract Number
                             GS-07P-91-JXC-00IO

OS/22/96        A50345       Postaward Audit of Multiple Award Schedule Contract: The Brewster Corporation, Contract
                             Number GS-00F-5297 A for the Interim Period May I, 1991 Through April 30, 1995

OS/23/96        A63626       Preaward Audit of Change Order Proposal: C. 1. Coakley Co., Inc., a Subcontractor to Turner
                             Construction Company, Contract Number GS-IIP9IAQC0060



56 Semiannual Report To The Congress
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending


Date of            Audit
Report             Number                                         Title

OS/29/96           A10538    Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                             Contract Number GS-10F-48545

OS/29/96           A10539    Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                             Contract Number GS-07F-13738

05/29/96           A10541    Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                             Contract Number GS-1OF-48876

OS/29/96           A 10542   Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                             Contract Number GS-00F-87668

06/13/96           A63634    Preaward Audit of Cost or Pricing Data: Wm. D. Euille & Associates, Inc., Solicitation Number
                             GS-11P-96-MKC-001O

06/21/96           A60649    Preaward Audit of Architect and Engineering Services Contract: Wank Adams Slavin Associates,
                             Solicitation Number GS-02P-96-DTC-00l1(N)

06/25/96           A52133    Postaward Audit of Multiple Award Schedule Contract: Attachmate Corporation, Contract Number
                             GSOOK93AGS6l91

06/27/96           A60637    Postaward Review of Real Estate Taxes: Internal Revenue Service, 1133 Avenue of the Americas,
                             New York, NY 10036, Lease Number GS-02B-22680

07/09/96           A61820    Postaward Audit of Multiple Award Schedule Contract: Plotter Supplies, Inc., Contract Number
                             GS-02F-2046A for the Period September 1,1990 Through February 29,1996

07/09/96           A62490    Preaward Audit of a Claim for Increased Costs: Rosendin Electric, Inc., Subcontractor to The
                             George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

07/12/96           A62496    Preaward Audit of Lease Escalation Proposal: One Waterfront Plaza Partners, Lease Number GS-
                             09B-89551

07/16/96           A60659    Posta ward Audit of Facility Charges Billed: CSC Consulting & Systems Integration, Subcontractor
                             to AT&T Communications, Contract Number GSOOK89AHD0008

07/22/96           A60653    Preaward Audit of Architect and Engineering Services Contract: Severud Associates Consulting
                             Engineers P.C., Solicitation Number GS-02P-96-DTC-0011(N)

07/22/96           A62491    Preaward Audit of a Claim for Increased Costs: Superior Tile Company, Subcontractor to The
                             George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

07/22/96           A62492    Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc., Subcontractor to The
                             George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

07/30/96   I   '   A60651    Preaward Audit of Architect and Engineering Services Contract: Flack + Kurtz Consulting
                             Engineers, Solicitation Number GS-02P-96-DTC-0011(N)




                                                                                                    Office of Inspector General 57
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending


Date of       Audit
Report        Number                                              Title

08/13/96      A51851        Postaward Audit of Multiple Award Schedule Contract: Tiffany Office Furniture, Contract Number
                            GS-00F-5057 A for the Interim Period April 15, 1991 Through April 12, 1995

08/15/96      A51827        Postaward Audit of Multiple Award Schedule Contract: Sybase, Inc., Contract Number
                            GSOOK92AGS5576 for the Period September 9, 1992 Through September 30, 1993

08/21/96      A61544        Preaward Audit of a Claim: D. L. Woods Construction, Inc., Contiac.t Number.GS05P9lGBC0057

08126/96      A41809        Postaward Audit of Multiple Award Schedule Contract: Baxter Healthcare Corporation, Contract
                            Number GSOOF03606 for the Period June 1, 1988 Through May 31, 1991

08126/96      A61549        Preaward Audit of Multiple Award Schedule Contract: Haworth, Inc., Solicitation Number 3FNS-
                            B8-950001-B

08128/96      A60663        Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number GS-OOK-
                            89AHD0008

08128/96      A6l550        Preaward Audit of Multiple Award Schedule Contract: Haworth, Inc., Solicitation Number 3FNS-95-
                            G201-B

08129/96      A62495        Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company, Inc., Subcontractor
                            to The George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

08/29/96      A63640        Preaward Audit of Sole Source Contract: K-LO Construction, Inc., Solicitation Number GS-
                            11P95MQC0039

09/06/96      A63643        Preaward Audit of Cost or Pricing Data: Design Management Associates, Inc., Solicitation Number
                            GSllP96MMCOOlO

09120/96      A61534        Preaward Audit of a Claim: Marino Construction Company, Contract Number GS05P90GBCOlOl

09120/96      A62485        Preaward Audit of a Claim for Increased Costs: Schram Construction Inc., Subcontractor to The
                            George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

09120/96      A62494 .      Preaward Audit of a Claim for Increased Costs: Aire-Sheet Metal Inc., Subcontractor to Schram
                            Construction Inc., Contract Number GS-09P-93"KTC c 0034

09125/96      A60947        Preaward Audit of Multiple Award Schedule Contract: Knoll North America, Inc., Solicitation
                            Number 3FNS-B8-95000l-B

09/25/96      A61547        Preaward Audit of Multiple Award Schedule Contract: Allsteel, Inc., Solicitation Number
                            3FNS-95-G201-B

09126/96      A62500         Preaward Audit of a Claim for Increased Costs: Rollie R. French, Inc., Subcontractor to The George
                             Hyman Construction Company, Contract Number GS-09P-93-KTC-0034




58 Semiannual Report To The Congress
Appendix 111- Audit Reports Over 12 Months Old with Final Action Pending


Internal Audits
Date of    Audit                                                                                  Projected Final
Rcport     Numbcr                            Title                                                  Action Date

03/12/96   A50906   Audit of the GSA Purchase of Telecommunications Services                          10/15/97
                    (POTS) Program

03/25/96   A53321   FSS' Stock Program Management Information Systems Need to                        04/15/99
                    be Improved to Provide More Accurate and Reliable Information

03/27/96   A43005   Audit of GSA's Aircraft Management Program                                        03/15/98

03/29/96   A42720   Audit of Accounting and Billing Controls Over the Public                          10/15/97
                    Buildings Service, National Capital Region's Reimbursable
                    Work Authorizations

09/30/96   A61835   Audit of Implementation of PBS's Information Systems Strategy                     02/15/98




                                                                                    Office of Inspector General 59
                                       Appendix IV- Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.


GSA Efforts to Improve Debt Collection                              gives advance written authorization to process a payment
During the period April 1, 1997, through September 30, 1997,        against his/her account.
GSA efforts to improve debt collection and reduce the amount
of debt written off as uncollectible focused on upgrading the       • We continue to work with any debtor with a financial
collection function and enhancing debt management. These            hardship by entering into a Promissory Note for installment
activities included the following:                                  payments, if applicable. This saves GSA, Treasury, and the
                                                                    Department of Justice both money and time from not
• In order to comply with the Debt Collection Improvement           escalating an account that cannot or will not otherwise be paid.
Act of 1996 and improve debt collection, 1,705 non-Federal
claims totaling $4.6 million were forwarded to the Financial        • Quarterly follow-ups are initiated with the Public Buildings
Management Service of the Department of the Treasury                Service contracting offices concerning claims that are in
(Treasury) for collection.
                                                                    dispute and delinquent for outlease and concession accounts.
                                                                    Also, quarterly follow-ups are done concerning audit-related
• The existing claims accounting system was redesigned to
allow multiple users to access resident data at the same time.      items. Our office provides assistance to contracting offices on
This has improved employee productivity.                            the correct procedures for processing claims.

• The use of the preauthorized debit is on the increase. Claims     • We participate in the judicial process by sending
paid in this manner are a certainty as the remitter (debtor)        representatives to testify or negotiate as necessary.


Non-Federal Accounts Receivable

                                                             As of                      As of
                                                          April 1, 1997           September 30, 1997           Difference

  Total Amounts Due GSA                                     $24,267,826                $29,843,883             $5,576,057
  Amount Delinquent                                         $19,339,703                $18,355,232             $(984,471)


  Total Amount Written
  Off as Uncollectible
  Between 4/1/97 and
  9/30/97                                                         $45,531


Of the total amounts due GSA and the amounts delinquent as of April 1, 1997 and September 30, 1997, approximately $631,000
and $593,000 respectively, are being disputed.




60 Semiannual Report To The Congress
                                           Appendix V - Reporting Requirements


The table below cross-references the reporting requirements                                      No. 96-829 relative to the 1980 Supplemental
prescribed hy the Inspector General Act of 1978, as                                              Appropriations and Rescission Bill and the National Defense
amended, to the specific pages where they are addressed.                                         Authorization Act is also cross-referenced to the appropriate
The information requested by the Congress in Senate Report                                       page of the report.



                                                                  Requirement                                                                                                  Page

  Inspector General Act
         Section 4(a)(2) - Review of Legislation and Regulations ........................................................................................... 32

         Section 5(a)(l) - Significant Problems, Abuses, and Deficiencies ......................................................................... 2, 14

         Scction 5(a)(2) - Recommendations With Respect to Significant Problems, Abuses,
           and Deficicncies ................................................................................................................................................. 2, 14

         Section 5(a)(3) - Prior Recommendations Not Yet Implemented .............................................................................. .41

         Section 5(a)(4) - Matters Referred to Prosccutive Authorities .................................................................................... 37

         Sections 5(a)(5) and 6(b)(2) - Summary ofInstances Where Information Was Refused ....................................... None

         Section 5(a)(6) - List of Audit Reports ....................................................................................................................... .43

         Section 5(a)(7) - Summary of Each Particularly Significant Report... .................................................................... 2, 14

         Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs ................................................ 36

         Section 5(a)(9) - Statistical Tables on Management Decisions on Recommendations
            That Funds Be Put to Better Use ........................................................................................................................... 35

         Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for Which No
            Management Decision Has Been Made ............................................................................................................. None

         Section 5(a)(11) - Description and Explanation for Any Significant Revised
            Management Decision ....................................................................................................................................... None

         Section 5(a)(l2) - Information on Any Significant Management Decisions With
            Which the Inspector General Disagrees ............................................................................................................. None

  Senate Report No. 96-829
         Resolution of Audits .................................................................................................................................................... 34

         Delinquent Debts ......................................................................................................................................................... 60

  National Defense Authorization Act. ..................................................................................................................... 55



                                                                                                                                                         Office of Inspector General 61
                                       Notes




62 Semiannual Report To The Congress
Ii ,
•
I

                                I
                                •
            •
            I •
To report suspected waste,
fraud, abuse, or mismanagement
in GSA, caU your

Inspector               eneral's Hotline
 ToliMfree 1m800-424-521 0
'Washington,       metropolitan area
(202) 501-1780

or write:       GSA, IG, Hotline Officer
                Washington, DC 20405
Federal Recycling Program   '0   Printed on Recycled Paper
